<html>
<title> - NOMINATION OF KIRSTJEN M. NIELSEN</title>
<body><pre>[Senate Hearing 115-392]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-392

                   NOMINATION OF KIRSTJEN M. NIELSEN

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

 NOMINATION OF KIRSTJEN M. NIELSEN TO BE SECRETARY, U.S. DEPARTMENT OF 
                           HOMELAND SECURITY

                               __________

                            NOVEMBER 8, 2017

       Available via the World Wide Web: http://www.govinfo.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
        
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-099 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f6918699b6958385829e939a86d895999bd8">[email&#160;protected]</a>         
        
        
        
        
        
        
        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
              David N. Brewer, Chief Investigative Counsel
               Margaret E. Daum, Minority Staff Director
               Donald K. Sherman, Minority Senior Counsel
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     3
    Senator Tester...............................................    16
    Senator Heitkamp.............................................    18
    Senator Peters...............................................    20
    Senator Hassan...............................................    22
    Senator Harris...............................................    25
    Senator Lankford.............................................    27
    Senator Hoeven...............................................    30
    Senator Carper...............................................    33
    Senator Daines...............................................    36
Prepared statements:
    Senator Johnson..............................................    49
    Senator McCaskill............................................    51
    Senator Portman..............................................    55

                               WITNESSES
                      Wednesday, November 8, 2017

Hon. Marco Rubio, a U.S. Senator from the State of Florida.......     5
Hon. Rob Portman, a U.S. Senator from the State of Ohio..........     6
Kirstjen M. Nielsen to be Secretary, U.S. Department of Homeland 
  Security
    Testimony....................................................     8
    Prepared statement...........................................    57
    Biographical and financial information.......................    61
    Letter from the Office of Government Ethics..................    84
    Responses to pre-hearing questions...........................    87
    Addendum to pre-hearing questions............................   148
    Responses to post-hearing questions..........................   149

                                APPENDIX

Newsweek Article.................................................   272
DACA Information.................................................   275
Statements for the Record from:
    American Hotel and Lodging Association.......................   301
    Association of State Criminal Investigative Agencies.........   302
    Arizona Department of Public Safety..........................   303
    Frank Cilluffo, Director, Center for Cyber and Homeland 
      Security...................................................   304
    Former Cyber Officials.......................................   305
    Former DHS Officials.........................................   311
    Former National Security Officials...........................   315
    Global Business Travel Association...........................   318
    Keith Hennessey..............................................   319
    International Association of Fire Chiefs.....................   320
    International Biometrics and Identity Association............   322
    John F. Kelly, Former Secretary of Homeland Security.........   324
    National Defense Industrial Association and Professional 
      Services Council...........................................   327
    National Fusion Center Association...........................   328
    Maj. General Arnold Punaro, USMC (Ret.)......................   329
    Philip R. Reitinger..........................................   330
    Tom Ridge and Michael Chertoff, Former Secretaries of 
      Homeland Security..........................................   331
    Security Industry Association................................   333
    Bennie Thompson, U.S. House of Representatives, Committee on 
      Homeland Security..........................................   334
    Women in Cyber...............................................   335

 
                   NOMINATION OF KIRSTJEN M. NIELSEN

                              ----------                              


                      WEDNESDAY, NOVEMBER 8, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Hoeven, 
Daines, McCaskill, Carper, Tester, Heitkamp, Peters, Hassan, 
and Harris.

            OPENING STATEMENT OF CHAIRMAN JOHNSON\1\

    Chairman Johnson. This hearing will come to order.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 49.
---------------------------------------------------------------------------
    Good morning. We are meeting today to consider the 
nomination of Kirstjen M. Nielsen to be the next Secretary of 
the United States Department of Homeland Security (DHS). I want 
to welcome Ms. Nielsen, her family, and our two distinguished 
Senators who will be making introductions a little bit later 
on. I certainly want to call out Mrs. Karen Kelly, General 
Kelly's wife. She is here also showing her support for the 
nominee. I know Ms. Nielsen will introduce her family in her 
opening statement.
    America is facing enormous challenges. Our national debt 
exceeds $20 trillion, and there is no serious effort being 
made--by either party--to significantly reduce the 30-year 
projected deficits that are currently expected to exceed $100 
trillion.
    Our enemies are on the rise. Russia continues to 
destabilize its neighbors and has partnered with Iran to 
increase both countries' influence in the Middle East. The 
Iranian Nuclear Agreement did modify Iran's behavior--for the 
worse. North Korea remains determined to develop the capability 
to target the United States with nuclear weapons. And the 
threat of Islamist terrorism has evolved, metastasized, and 
spread all over the world--including to our homeland.
    The challenges facing the next Secretary of the Department 
of Homeland Security are equally daunting.
    We have just experienced unprecedented destruction caused 
by three hurricanes and multiple wildfires. DHS and the Federal 
Emergency Management Agency (FEMA), together with their 
budgets, are already stretched thin responding to these 
disasters.
    As the use of the Internet spreads and increases, so do the 
threats posed by social media-inspired acts of terrorism, 
hacking, and cyber attacks.
    This Committee has held more than 20 hearings laying out 
the sad reality that our borders are far from secure. As a 
result, illegal immigration persists, illicit drugs flow 
virtually unabated, and we are more vulnerable than we should 
be to external forces.
    Unfortunately, enemies from within may currently pose our 
greatest danger. Five years ago, on August 5, 2012, evil struck 
in Oak Creek, Wisconsin, when six worshipers were senselessly 
slaughtered at a Sikh temple. Since then, the list of mass 
killings has persistently and depressingly grown. I am going to 
read a list.
    December 14, 2012: 26 killed, 2 wounded at an elementary 
school in Sandy Hook, Connecticut.
    April 15, 2013: 3 killed, 264 wounded in a bombing at the 
Boston Marathon.
    September 16, 2013: 12 killed, 8 wounded at the Navy Yard 
here in Washington, DC.
    April 2, 2014: 3 killed, 12 wounded at Fort Hood, Texas, 5 
years after an even deadlier shooting that took 13 lives and 
injured 30 others.
    April 13, 2014: three killed at a Jewish community center 
in Overland Park, Kansas.
    May 23, 2014: 6 killed, 14 wounded near the campus of the 
University of California, Santa Barbara.
    May 17, 2015: 9 killed, 18 wounded in a motorcycle gang 
fight at a restaurant in Waco, Texas.
    June 17, 2015: nine killed, one wounded at the Emanuel 
African Methodist Episcopal Church in Charleston, South 
Carolina.
    July 16, 2015: five killed, two wounded at a military 
recruiting center and a Naval Reserve center in Chattanooga, 
Tennessee.
    October 1, 2015: nine killed, nine wounded at the Umpqua 
Community College in Roseburg, Oregon.
    November 27, 2015: three killed, nine wounded outside a 
clinic in Colorado Springs, Colorado.
    December 2, 2015: 14 killed, 24 wounded at a Christmas 
party in San Bernardino, California.
    June 12, 2016: 49 killed, at least 68 wounded at the Pulse 
nightclub in Orlando, Florida.
    July 7, 2016: 5 police officers killed, 11 wounded near a 
parking garage in Dallas, Texas.
    July 17, 2016: three police officers killed and three more 
officers wounded at a shopping plaza in Baton Rouge, Louisiana.
    January 6, 2017: five killed, six wounded at the airport in 
Fort Lauderdale, Florida.
    October 1, 2017: 58 killed, 546 wounded at a music concert 
in Las Vegas, Nevada.
    October 31, 2017: 8 killed, 12 wounded along a bicycle path 
in New York City.
    November 5, 2017, just last Sunday: 26 killed and at least 
20 wounded in the First Baptist Church in Sutherland Springs, 
Texas.
    During that list, I just called out the deaths of 262 
Americans, more than 1,000 wounded. I would like to just take a 
moment of silence to reflect and remember those victims and 
their families.
    [Moment of silence.]
    Later Sunday evening, my 34-year-old daughter asked me the 
questions we are all asking ourselves: ``What is happening? Why 
is this happening? What can we do about it?''
    Those are the questions the next Department of Homeland 
Security Secretary will be asked to address. It will not be an 
easy task. The Department of Homeland Security employs 
approximately 240,000 people and manages a budget of $66 
billion. It is a Department created by fusing 22 separate 
agencies with diverse missions. The result has been a 
Department that has struggled to unify its efforts and manage a 
workforce with habitually low morale relative to other Federal 
agencies.
    Fortunately, when Ms. Nielsen served under Secretary Kelly, 
she witnessed firsthand how quickly and dramatically morale can 
be improved within DHS by providing its workforce the authority 
and support they need to perform the tasks they were hired to 
do.
    In my conversation with General Kelly, he called Ms. 
Nielsen a ``superstar.'' He has sent this Committee a letter of 
endorsement.\1\ We have also received a letter of endorsement 
from former DHS Secretaries Tom Ridge and Michael Chertoff,\2\ 
as well as a letter from 40 former White House and homeland 
security Federal officials. I ask consent that these letters be 
entered in the record.\3\
---------------------------------------------------------------------------
    \1\ The letter of General Kelly appear in the Appendix on page 324.
    \2\ The letter of Tom Ridge and Michael Chertoff appear in the 
Appendix on page 331.
    \3\ The letter of former Federal officials appear in the Appendix 
on page 311.
---------------------------------------------------------------------------
    Ms. Nielsen, I thank you for your past service and your 
willingness to serve again, and I look forward to your 
testimony.
    With that, I will turn it over to our Ranking Member, 
Senator McCaskill.

           OPENING STATEMENT OF SENATOR McCASKILL\4\

    Senator McCaskill. Thank you, Mr. Chairman. I appreciate 
you holding this hearing, and I thank the nominee for her 
willingness to serve.
---------------------------------------------------------------------------
    \4\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 51.
---------------------------------------------------------------------------
    Today we convene to perform one of our most important 
constitutional functions: to provide advice and consent for the 
President's nominee for senior positions in our government. On 
October 16, 2017, President Trump nominated Ms. Nielsen to lead 
the Department of Homeland Security. Recent events have only 
reinforced the need for the Department to have strong, 
permanent leadership. American citizens in Texas, Florida, 
Puerto Rico, the Virgin Islands, and other regions have had 
their lives and livelihoods upended by hurricanes. Out west, 
raging wildfires have forced thousands of families from their 
homes. Record-breaking floods have ravaged communities across 
my home State of Missouri. And last week, New York City 
suffered its most deadly terrorist attack since September 11, 
2001 (9/11).
    In times of crisis, the American people come together, and 
they crave leadership that brings us together. DHS plays a 
critical role in ensuring that the Federal Government provides 
that leadership and supports that effort.
    If confirmed as Secretary, Ms. Nielsen will lead the third 
largest department in the Federal Government, oversee a 
workforce that includes more than 240,000 employees and 
contractors, and coordinate 22 separate components, including 
Customs and Border Protection (CBP), Immigration and Customs 
Enforcement (ICE), Transportation Security Administration 
(TSA), U.S. Citizenship and Immigration Services, the Federal 
Emergency Management Agency, the U.S. Coast Guard, and the 
Secret Service.
    While I was already aware of Ms. Nielsen's intellect and 
work ethic as well as her expertise in cybersecurity and 
preparedness, I appreciated the chance to discuss the other 
qualities she would bring to DHS in our meeting yesterday. My 
hope is that today's hearing will explore some of the 
challenges currently facing DHS and that will confront her if 
she is confirmed.
    For example, I look forward to learning how Ms. Nielsen 
plans to improve the counterterrorism capabilities despite the 
dramatic cuts included in the President's budget.
    I want to know what steps Ms. Nielsen will take to stop the 
illegal flow of drugs and contraband through our ports of entry 
(POEs) in spite of the failure of the budget to address the 
need for more Border Patrol officers that serve at our ports of 
entry.
    I would like to hear how Ms. Nielsen has and will apply 
lessons learned from Hurricane Katrina and recent disasters to 
improve the oversight of DHS contracting practices in crisis 
situations.
    I also hope that Ms. Nielsen will share her priorities for 
counteracting violent extremism and for protecting our cyber 
and election infrastructure from foreign actors.
    Perhaps most importantly, I want to learn about the 
management experience and philosophy that Ms. Nielsen plans to 
bring to DHS. It is, in fact, judgment, management experience, 
and philosophy that she will have the most important duties 
because, of course, she will try to surround herself with 
department heads and other high-ranking officials that will do 
the day-to-day operation of the Department.
    No one that has served as DHS Secretary has had perfect 
knowledge of the breadth and depth of issues facing the 
Department. I certainly think Ms. Nielsen is very knowledgeable 
and has great breadth and depth of the policies and issues 
facing the Department. But the Secretary must also have the 
leadership, management, and communication skills to lead a 
complex and sprawling enterprise on day one. I hope Ms. Nielsen 
will discuss her strategies for promoting collaboration and 
efficiency among the various components within the agency and 
other Federal partners.
    I also want to know how Ms. Nielsen will build employee 
morale and ensure that whistleblowers can come forward to 
management, Congress, and the Inspector General (IG) to report 
waste, fraud, and abuse without fear of retaliation.
    Finally, and maybe most importantly, I hope to receive the 
public commitment from Ms. Nielsen that DHS will comply with 
oversight requests from all Members of this Committee, 
including several of mine that remain outstanding.
    Ms. Nielsen's predecessor, General John Kelly, was willing 
to speak frankly, even when his message was one that would not 
be particularly well received. It was the thing I found most 
qualifying of General Kelly for the position that he held and 
the position he currently holds. Under his leadership, DHS was 
willing to answer requests for information from both the 
majority and the minority and, while not perfect, was far more 
responsive than many other departments. We have a 
constitutional duty to perform oversight of the Department, and 
I would like to continue the cooperation that General Kelly 
showed to the majority and minority Members of this Committee.
    The Department of Homeland Security is comprised of 
thousands of talented and dedicated Americans who work every 
day to keep us safe. They develop and implement 
counterterrorism and cybersecurity policy. They defend our 
border and ports of entry. They administer our immigration 
laws, protect our national leaders and critical infrastructure, 
and execute disaster preparedness and response. We must 
continue to ensure that these public servants have the support 
necessary to succeed in their mission, and I look forward to 
working with Ms. Nielsen in that effort should she be confirmed 
as our Nation's sixth Secretary of Homeland Security.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator McCaskill.
    Now we have two of our distinguished colleagues who will 
offer some words of introduction and support for Ms. Nielsen. 
Senator Portman.
    Senator Portman. Mr. Chairman, I am going to yield, if it 
is OK, to Senator Rubio, who has to go run and enhance the 
child tax credit because I need to stay here for the hearing in 
any case.
    Chairman Johnson. We will start with Senator Rubio then. 
Senator Portman.

TESTIMONY OF THE HONORABLE MARCO RUBIO, A UNITED STATES SENATOR 
                   FROM THE STATE OF FLORIDA

    Senator Rubio. Thank you, Senator Portman. To Mr. Chairman, 
the Ranking Member and the Members of the Committee, I am 
honored to be here today to introduce a fellow Floridian, 
Kirstjen Nielsen, as the President's nominee to be the 
Secretary of Homeland Security.
    Ms. Nielsen grew up in Clearwater, which is in Pinellas 
County, Florida, and among her many professional experiences, 
began here in the U.S. Senate where she served on the staff of 
former Florida Senator Connie Mack. On that staff, she worked 
on defense, aviation, and foreign affairs issues, which are 
matters that are not only important to our home State of 
Florida but also critical matters for the national security of 
our country.
    She has a long and distinguished career in homeland 
security matters that spans more than two decades, earning a 
nationally respected reputation. She is an internationally 
recognized expert in resiliency and risk management, critical 
infrastructure, cybersecurity, and emergency management.
    We have before us a nominee to serve in this critical 
position who understands the extraordinary and wide range of 
homeland security-related challenges and the ever evolving 
threats we as Americans face, including hurricane preparedness 
and response, combating illicit international drug trafficking, 
and ensuring safe and efficient air travel.
    Ms. Nielsen recently served as the Department of Homeland 
Security's Chief of Staff under then-Secretary Kelly, and 
during that time I had the opportunity to get to know her 
better while working with Secretary Kelly on a number of 
homeland security issues. I would like to read a short excerpt 
from a letter in support of 
Ms. Nielsen's nomination from General Kelly, who could not be 
here with us to help introduce her because he is currently 
traveling with the President in Asia. He wrote in part the 
following to this Committee:
    ``You have read of Kirstjen's accomplishments and her 
polished resume. You have heard the accolades of her success 
and devotion to duty. What truly sets Kirstjen apart is her 
integrity, sense of service to our Nation, and dedication to 
the men and women who risk their lives serving our great 
country every day. She is undoubtedly qualified to serve as the 
next Secretary of Homeland Security, and I implore the 
Committee to ensure a swift confirmation for the sake of our 
Nation.''
    Mr. Chairman, I would ask, if appropriate, that the full 
letter, which I have here, from former Secretary Kelly be 
entered into the hearing record.\1\
---------------------------------------------------------------------------
    \1\ The letter of Secretary Kelly appears in the Appendix on page 
324.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Rubio. Aside from Ms. Nielsen's impressive 
qualifications, I know her to be prepared for challenges, 
devoted to finding solutions, and committed to working with us 
here in Congress to ensure a safe and secure homeland.
    I thank you for allowing me the opportunity to introduce 
this well-qualified nominee, and I truly hope that the 
Committee will quickly move forward with her nomination and 
that the Senate will soon confirm her as the next Secretary of 
the Department of Homeland Security.
    I thank you again.
    Chairman Johnson. Thank you, Senator Rubio. Senator 
Portman.

  TESTIMONY OF THE HONORABLE ROB PORTMAN,\2\ A UNITED STATES 
                 SENATOR FROM THE STATE OF OHIO

    Senator Portman. Thank you, Mr. Chairman. I appreciate you 
and Senator McCaskill giving me the privilege of being able to 
introduce the nominee today. Kirstjen Nielsen is, as was just 
said by my colleague Senator Rubio, so qualified for this job. 
I must say, Mr. Chairman, when you laid out the challenges we 
face, it is sobering, and we need to have somebody with the 
experience and qualifications that she has, and we need that 
right now.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Portman appears in the 
Appendix on page 55.
---------------------------------------------------------------------------
    Before commenting further on her distinguished career and 
qualifications, I do want to take a moment to acknowledge 
fellow Ohioan and Acting Secretary Elaine Duke for her service. 
She took over the Secretary duties at a challenging time and 
has displayed leadership and dignity. I know she has worked 
closely with you, Mr. Chairman, the Ranking Member, and others.
    Kirstjen is not a native Ohioan like Ms. Duke, but I am 
equally excited to introduce her this morning. We served 
concurrently at the White House in the George W. Bush 
Administration where she was a trusted hand in the formative 
years of the Homeland Security Council as Senior Director for 
Prevention, Preparedness, and Response. I saw a decade ago a 
professional dedicated to public service and the mission of 
securing the homeland, just as I see that today in her actions 
more recently at Homeland Security and at the White House. I am 
delighted again that she is stepping forward to take on this 
responsibility.
    I appreciated the opportunity to sit down with her a couple 
of weeks ago to hear about her priorities for the Department of 
Homeland Security. It sounds like you all have done the same 
thing, and it is exciting, I think, to have someone with her 
energy and enthusiasm, work ethic, as was mentioned by Senator 
McCaskill, and her qualifications to do this.
    She has this Hill experience we talked about a moment ago. 
She also have private sector experience in the area of homeland 
security. I think most importantly perhaps, she is the first 
Department of Homeland Security Secretary nominee with previous 
experience at DHS. I think that is important given the serious 
challenges again you described for us, Chairman Johnson.
    With this homeland security expertise and experience from 
those transformative years for the Department and at the White 
House, her industry and homeland security consulting 
experience, and her most recent role in the Administration, she 
will be the kind of experienced and capable leader we need now 
in this ever evolving threat environment we find ourselves in.
    Most recently, of course, she served as Chief of Staff to 
Secretary John Kelly. She proved herself in the early stages of 
the Administration transition and saw firsthand the challenges 
of managing this diverse and sprawling agency. Senator 
McCaskill is right, it is a management challenge. She has seen 
firsthand those challenges.
    Throughout her career in government and the private sector, 
she has developed expertise in homeland security strategy, 
cybersecurity, transportation security, and emergency 
resilience. She speaks regularly about the need for resilience 
in our homeland security posture. I think that is incredibly 
important for the next Secretary.
    Mr. Chairman, you noted in your opening comments that the 
Committee received written introductions for this hearing from 
former DHS Secretaries Tom Ridge and Michael Chertoff. I know 
both regret they could not be here today in person, as does 
Secretary Kelly, to endorse Kirstjen's nomination. But these 
leaders know what this job entails, and if I may, I would like 
to just briefly read a couple of excerpts from their letters 
and what they said about Kirstjen.
    ``Kirstjen,'' according to Secretary Ridge, ``has been 
engaged in counterterrorism, all-hazard risk mitigation, 
critical infrastructure protection and response policy from the 
earliest days of what we now know as homeland security. She 
brings operational experience as well, having managed the day-
to-day operations of the Department. She has since served as 
Principal Deputy Chief of Staff at the White House charged with 
coordinating the interagency policymaking process at the 
highest levels with the Secretaries and Deputy Secretaries. 
Simply put, she is ready to hit the ground running on day 
one.'' That is from Secretary Ridge.
    From Secretary Michael Chertoff, he said this: ``She played 
a key role in helping lead the lessons learned effort post 
Hurricane Katrina, informing and changing the way we have dealt 
with disaster preparation and response ever since. Kirstjen is 
a homeland security leader for our times. More than any 
previous Secretary, she understands the 21st Century challenges 
of a borderless cyber domain and has worked in both the public 
and private sectors to address this deeply interconnected and 
consequential risk to America's national security and economic 
stability. Kirstjen offers our Nation the credentials required 
of a Secretary in today's environment, experience, expertise in 
homeland security policy and operations, national and 
international perspective, and public and private sector 
experience in the mission space.''
    Mr. Chairman, I echo those strong sentiments. I believe her 
work ethic, her experience, and her leadership is what is 
needed at Homeland Security, and needed now. I am sure we are 
going to have a fruitful discussion with the nominee today. I 
look forward to asking a few questions myself. I hope we can 
move this nomination very quickly out of Committee and through 
the Senate so we can get her to work as the next Secretary of 
Homeland Security at a critical time.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Portman.
    Ms. Nielsen, it is the tradition of this Committee to swear 
in witnesses, so if you would please stand and raise your right 
hand. Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Ms. Nielsen. I do.
    Chairman Johnson. Please be seated.
    Kirstjen Nielsen is currently the Principal Deputy Chief of 
Staff to President Trump and prior to that was the Chief of 
Staff to then-Secretary John Kelly of the Department of 
Homeland Security. Ms. Nielsen served in the Bush 
Administration as Special Assistant to the President and Senior 
Director in the White House Homeland Security Council from 2004 
to 2007. She holds a bachelor's degree from the Georgetown 
University School of Foreign Service and a J.D. from the 
University of Virginia School of Law. Ms. Nielsen.

  TESTIMONY OF KIRSTJEN M. NIELSEN,\1\ TO BE SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Nielsen. Thank you. Mr. Chairman, Ranking Member 
McCaskill, and distinguished Members of the Committee, it is an 
honor to appear before you today as you consider my nomination 
to lead the Department of Homeland Security. I am humbled and 
grateful to the President for the trust he has placed in me to 
lead the great men and women of the Department during such a 
critical time.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Nielsen appears in the Appendix 
on page 57.
---------------------------------------------------------------------------
    I want to thank Senators Rubio and Portman for their kind 
words and introductions. Thank you also to former Secretaries 
Ridge and Chertoff for their statements. It was an honor to 
serve and work with them, and I look forward to their continued 
partnership and stewardship of our homeland security 
enterprise. Finally, I want to thank former Secretary, now 
Chief of Staff, General Kelly for his leadership, example, and 
46 years of steadfast service to our Nation.
    If I could, please allow me just a moment to introduce the 
members of my family who are here with me today: my father, 
James; my sister, Ashley; my aunt and uncle, Trevor and Mary 
Ellen Burton; and one of my cousins, Andrew Bragg, who managed 
to get here from Germany. I would also like to thank Mrs. Kelly 
for her support and for being here for me today.
    I was raised to believe in our country and its founding 
principles and ideals, to serve our country, and to appreciate 
and be thankful every day for the freedoms we hold dear as 
Americans. I am beyond grateful to my family for the values 
they have instilled in me and their unwavering love and support 
throughout my life. Thank you all for your continued 
encouragement and for traveling so far to be here today.
    If confirmed as the next Secretary of Homeland Security, it 
will be the greatest honor to again work with and support the 
remarkable men and women of the Department. I just simply 
cannot say enough about the incredible work of the people of 
DHS, many of whom put their lives on the line daily to ensure 
the safety and security of our Nation.
    Over more than two decades, I have dedicated my career to 
working on homeland security issues. After working on security 
issues for Senator Connie Mack, I practiced corporate 
transactional law during which time I learned how private 
sector operations are directly affected by organizational 
structures and delineation of roles and responsibilities. My 
service in the Executive Branch began in 2002 at the 
Transportation Security Administration. It was an honor to work 
alongside the countless public servants who stood up TSA and 
tackled the very tough security challenges that we faced after 
the tragic attacks on September 11, 2001 and who then later 
helped to stand up the Department of Homeland Security.
    I was subsequently commissioned by President Bush to serve 
as a Special Assistant to the President for Homeland Security 
and as Senior Director for Preparedness, Prevention, and 
Response. Charged with interagency policy development and 
coordination, I led the development of new national strategies 
and policies, articulating the roles of all levels of 
government and the private sector in protecting our Nation. 
During this time the Nation experienced the devastation caused 
by Hurricane Katrina along the gulf coast. Based on the lessons 
identified from that response, I led the update and revisions 
to our disaster response planning and recovery planning to 
strengthen our efforts moving into the future. I worked with 
Congress to draft the Post Katrina Emergency Management Reform 
Act and co-authored the White House Katrina lessons learned 
report. As we have seen again during this year's severe 
hurricane and wildfire season, DHS plays a crucial role in 
disaster preparedness, mitigation, response, and recovery 
working closely with public and private sector partners. I have 
worked closely with all facets of our emergency preparedness 
community, and should I be confirmed, I look forward to helping 
to ensure our Nation's resilience to natural disasters, 
terrorist attacks. and other major emergencies.
    While each aspect of the Department's mission is 
important--and as has been mentioned, there are many--I believe 
one of the most significant for our Nation's future is 
cybersecurity and the overall security and resilience of our 
Nation's critical infrastructure. The scope and pace of cyber 
attacks against our Federal networks and the control systems 
that run our critical infrastructure are continually 
increasing, with attacks growing ever more complex. Cyber 
criminals and nation-states are constantly looking for ways to 
exploit our hyperconnectivity and our reliance on information 
technology systems. My cybersecurity experience in both the 
private and public sector has prepared me well for the 
multifaceted challenge that is increasing our resilience to 
cyber attacks. I look forward to working with experts at the 
Department and within the interagency and the private sector to 
address threats, protect our networks and essential functions, 
and secure our Nation's interests in cyberspace.
    At the start of the current Administration, I also had the 
honor of serving as Chief of Staff at DHS under then-Secretary 
Kelly. During that time I worked closely with State and local 
officials, Cabinet Secretaries, foreign partners, and Members 
of Congress on all of the issues that DHS faces. I had the 
opportunity to develop strong working relationships with DHS 
leadership and helped to develop many of the Department's 
current key priorities and strategies.
    Our Nation today is facing a complex threat landscape that 
is constantly evolving. The threats we face are too many and 
too varied for one entity to address them successfully alone. I 
understand the risks and the resulting challenges the 
Department is tasked with resolving, and I am eager to get to 
work with all of DHS's partners--domestic and international 
from all sectors--to find solutions.
    If confirmed, I pledge to continue the record of 
exceptional leadership that General Kelly and Acting Secretary 
Duke have established at DHS. I vow to the men and women of 
DHS, to you, and to the hundreds of millions of Americans who 
rely on DHS every day to work tirelessly to effectively execute 
each mission at the Department. I will work every day to 
enforce our laws; secure our borders, coasts, and waterways; 
and protect Americans from dangerous criminals, terrorists, 
cyber attacks, and the other threats facing our homeland. 
Together we will continue such efforts as those initiated by 
Secretary Jeh Johnson through his Unity of Effort Initiative to 
unite the Department and remove unnecessary stovepipes. I also 
pledge to work every day to give the dedicated men and women of 
the Department the support, tools, and resources they need, and 
deserve, to carry out their difficult--and often dangerous--
missions.
    Thank you all again for the opportunity to appear before 
you today. Should I be confirmed, I look forward to partnering 
with each of you, the Committee, and the full Congress to 
protect and secure our homeland. I look forward to answering 
any of the Committee's questions.
    Chairman Johnson. Thank you, Ms. Nielsen.
    There are three questions the Committee asks of every 
nominee for the record. The first question is: Is there 
anything you are aware of in your background that might present 
a conflict of interest with the duties of the office to which 
you have been nominated?
    Ms. Nielsen. No.
    Chairman Johnson. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Ms. Nielsen. No.
    Chairman Johnson. Do you agree without reservation to 
comply with any request or summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed?
    Ms. Nielsen. Without reservation.
    Chairman Johnson. Thank you.
    I will defer my questions until the very end, but we do 
have a request for a second round of questions, which I am 
happy to accommodate.
    I also want to make sure that those who do not stick around 
get a full hearing, so I will set the timer for 7 minutes, but 
I am going to be very mindful of that, and I am going to 
discipline that. Please, Members, do not be asking questions to 
the very end. If you do, I will just ask Ms. Nielsen to submit 
her answer for the record.
    With that, I will turn it over to Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman. I will do my 
best to make the 7 minutes. You scared me to death just then. I 
feel like there is an electric shock that is going to run 
through my body if I go over 7 minutes. [Laughter.]
    I know that you revised your questionnaire last night, and 
I want to make sure we get that on the record.\1\ What you have 
done is you have gone through and clarified in the 
questionnaires both for the majority and the minority that you 
would comply without reservation for any request to appear and 
that you would without reservation make any subordinate 
official available to appear and testify. You agree without 
reservation to completely, fully, and promptly respond to any 
requests for documents from any duly constituted committee of 
the Congress if you are confirmed. You went on to do the same 
thing in the minority. I just want to get that on the record 
that there was some confusion in some of the answers to your 
previous questionnaire that you, like your predecessor, 
understand that you have a duty to respond to oversight 
requests, whether they come from the majority or the minority.
---------------------------------------------------------------------------
    \1\ The questionnaire referenced by Senator McCaskill appears in 
the Appendix on page 148.
---------------------------------------------------------------------------
    Ms. Nielsen. Yes, ma'am.
    Senator McCaskill. Thank you very much.
    I want to read a quote from your predecessor about the 
wall, and it was as follows: ``It is unlikely that we will 
build a wall or physical barrier from sea to shining sea,'' 
Kelly testified to this Committee. ``We are not going to build 
a wall where it does not make sense, but we will do something 
across the Southwest Border.''
    Do you agree with General Kelly in that regard?
    Ms. Nielsen. Yes, ma'am.
    Senator McCaskill. Whistleblowers. I am a big believer that 
there must be whistleblower protection. Can you briefly address 
how you feel about whistleblowers and protecting them from 
retaliation within the Department?
    Ms. Nielsen. Yes, I would be happy to. I would do, should I 
be confirmed, everything in my power to ensure that there is no 
retaliation. I feel that whistleblowers are a very important 
part of the way that our democracy functions. I was very happy 
that recently the President signed into law another 
whistleblower act. Of course, it was greatly due to the 
Chairman's efforts. But I believe within each department we 
need to ensure not only that there is an environment of trust 
and respect, but that there is a safe place for voices to be 
heard. It is vital that we understand any concerns of 
employees.
    Senator McCaskill. Let me also address contracting after 
disasters. We are all very worried about all the Americans. For 
the first time, I believe, in my lifetime, we have been unable 
to restore basic living necessities to thousands of Americans 
for weeks now. I am confident you will get other questions 
about Puerto Rico, but I want to specifically hone in on 
contracting.
    You have awarded more than $2 billion in contracts, twice 
the amount of contracting activity the agency typically 
conducts in an entire year, just since Hurricane Harvey struck. 
What circumstances do you think it is appropriate to award no-
bid contracts? And what could you do to prepare the agency with 
contracts that have been competed that could slide into place 
in the aftermath of a disaster?
    Ms. Nielsen. Thank you for the question. This is an area, 
should I be confirmed, that I really would like to work with 
Congress on. We need flexibility, accountability, and agility 
in these contracts. In some cases, we need to adjust the rules 
such that we can get the needed mission assignments, needed 
supplies to the people. But we have to make sure there is 
accountability and that we have checks and balances and 
internal controls. I am not fully aware of every particular 
avenue that FEMA has perceived or pursued, but I think what we 
need to be aware of is the innovation needs to be balanced with 
accountability.
    Senator McCaskill. What I am looking to hear is that 
generally you have a bias against noncompete contracts.
    Ms. Nielsen. I think it is a last resort, in my opinion. If 
it is life and death, there might be some circumstance that I--
--
    Senator McCaskill. But that is my point. What I really hope 
happens is that you begin a comprehensive effort. We know these 
disasters are coming.
    Ms. Nielsen. Yes.
    Senator McCaskill. We know that there are going to be 
natural disasters across our country. All we have to do is look 
what is going on, and I believe a lot of this is climate. That 
is for another day and another discussion. But in order to have 
standby contracts that can be competed, that takes leadership 
from DHS and FEMA. Of course, you have to do a no-bid contract 
if you have nothing prepared for the moment where you have to 
have thousands of people restoring electricity.
    Ms. Nielsen. Yes. I agree. I think we need to have better 
modeling, and based on that modeling and understanding of the 
potential consequences, we need to work with State, local, 
tribal, and territorial governments to have those contracts in 
place pre-disaster. That is a much more effective way to do 
that.
    Senator McCaskill. You and I discussed yesterday one of my 
biggest concerns is our ports. My colleague to the left here, 
Senator Portman, Senator Hassan and Senator Johnson, and many 
of the others, all of us are so concerned about the public 
health crisis that grips our Nation in terms of the death toll 
from opioids. We know that a lot of this is coming in fact, I 
think if we really did a close analysis, we would see more of 
it is coming in through the ports than across the border in 
terms of opioids, especially fentanyl. Meanwhile we are adding 
more Border Patrol officers on the border, agents on the 
border, when we cannot fill the positions we have, and we are 
cutting port officers where we desperately need more manpower. 
They are thousands of folks short.
    I am quickly approaching where I am going to get electric 
shock, but I would like you to address and make a commitment 
that you will look at this imbalance and address it, that we 
are actually potentially overloading the Border Patrol and 
ignoring the ports.
    Ms. Nielsen. Senator, you have my commitment. I look 
forward, should I be confirmed, to working with the folks at 
CBP, understanding their operational needs on the border. As 
you know and we talked about, it is a combination of both 
personnel and technology. We also have to remember that 
technology can always serve also as a force multiplier if 
implemented and executed correctly.
    We need to move with the times, so we need to understand 
where and how the drugs are coming in, the best combination of 
resources, which includes personnel, to combat that.
    Senator McCaskill. Thank you.
    Thank you, Mr. Chairman. How did you like that? Look at 
that, 3 seconds.
    Chairman Johnson. I appreciate it. But for the record, I 
only really threatened a light tap of the gavel. [Laughter.]
    Senator Portman.
    Senator Portman. First, thank you, Mr. Chairman, for your 
indulgence letting us have the opportunity to ask some 
questions before you because I know you are going to have a lot 
yourself.
    First, welcome, and, again, we are delighted that you are 
stepping up to take on this incredibly important role. One of 
the things that was mentioned earlier was congressional 
oversight. There has been frustration expressed in this 
Committee over my tenure on this Committee of the last several 
years that we do not get the kind of responses that we need to 
be able to do effective oversight. This is not a partisan 
issue, and it should not be. And as the Chair of the Permanent 
Subcommittee on Investigations (PSI), we have worked on a 
totally bipartisan basis, and we have done some good work, but 
it requires the Administration to be responsive.
    I would say that it might be helpful for me to give you a 
specific example rather than just sort of talk generally about 
it, and it has to do with what Senator McCaskill talked about 
earlier, which is this ability for us to focus on the supply 
side with drugs coming into our country. We are doing an 
investigation, and I am not going to get into detail about the 
investigation because we tend to keep those nonpublic at PSI. 
But we are trying to get information from the front lines as to 
what is happening with regard to looking at packages.
    We know fentanyl is the No. 1 killer now in my home State 
of Ohio. It is increasingly the drug that is even pushing out 
heroin and other opioids. It is a synthetic drug. It is 
inexpensive. Most of it comes from China. Most of it comes 
through the mail system. Private carriers, as you know, have to 
provide this advance electronic data, which we will talk about 
in a second. The Postal Service does not; therefore, 
traffickers use the Postal Service.
    We want to know: How can we stop this poison from coming 
into our communities? And we all on this Committee have focused 
on the demand side. That is important, prevention, education, 
treatment, and recovery. But we also know that if we can stop 
this poison from coming in, it will save lives and at a minimum 
raise costs for these street drugs.
    We want to interview the online people who are actually 
doing the inspection of packages at John F. Kennedy (JFK), at 
your other sites where you have the post office bringing in 
overseas packages. We were told by DHS, no, those are too low 
level people, you have to interview the supervisors. We 
persist, but they continue to say no. So we say, OK, we will 
interview the supervisors. We interviewed the supervisors. They 
do not have the information for us. In fact, I will tell you, 
even the supervisors--one of them, at least, refused to look at 
the emails to be able to provide us some responsive answers, 
which was frustrating. But you know what they told us? You need 
to talk to the online people.
    DHS refuses to allow us to talk to the online people. We go 
to the supervisors at their request. The supervisors say we 
really do not have the firsthand knowledge, you need to talk to 
the folks on the front line.
    I just wanted to give you that as a very specific, real-
time concern that we have right now in the PSI Subcommittee, 
and I think if Senator Carper were here, he would echo my 
concerns. He is the ranking Democrat on that Subcommittee. We 
do not want to have to go to subpoenas, but we will. I would 
just like the commitment that you expressed to me in private in 
our meeting about this broad topic that you will work with us 
to enhance the responsiveness of the Department. It is a big, 
sprawling Department with a lot of management challenges and a 
lot of layers. We want the commitment that you will work with 
this Committee, which is the Committee vested with the 
responsibility for providing oversight over DHS to respond to 
congressional inquiries.
    Ms. Nielsen. Thank you, Senator, for that question. You 
have my commitment. I think that, as we discussed, there is no 
more important partnership perhaps with a large Department with 
its large scope to be very clear with respect to the policies 
regarding oversight and transparency. I believe those are keys 
not only to leadership but to the effective partnership that is 
required to combat the threats today. You would have my 
commitment that any question that you have, we would be 
responsive and provide you the information you need to do your 
job, which in turn helps us to do our job.
    Senator Portman. I think sending a message from the top is 
very important, and I think my colleagues on both sides of the 
aisle would appreciate that.
    On this issue of drugs coming into the country, let me ask 
you about a specific legislative initiative. Most Members of 
this Committee have been involved in what is called the STOP 
Act.
    Ms. Nielsen. Yes.
    Senator Portman. That simply says that with regard to 
private carriers, you have to have the advance electronic data 
as to what is in the package, where it is from, and where it is 
going. That helps law enforcement, CBP in particular, to be 
able to identify those packages and stop some of this poison 
coming in. I have seen this at facilities with these private 
carriers, UPS facilities, DHL facilities, or the same thing at 
FedEx facilities.
    At the post office there is not that requirement through 
the Postal Service. In 2002, this Congress required the private 
carriers to do it and said the post office should, too. We are 
going to give them some time. Let us have a report. That was 15 
years ago. Even today, the post office is pushing back.
    What I would like to hear today from you is your commitment 
to getting this legislation through. It is very simple. It says 
the post office has to require the same advance electronic data 
so that your folks can actually identify this poison coming in. 
When we talk to CBP, of course, they are very interested in 
having this legislation passed. They need this tool. When we 
talk to the postal inspectors, same thing. When we talk to 
local law enforcement, same thing.
    The legislation has not moved, in part because the post 
office has pushed back. In the last 2 weeks, the Commission 
that the President formed on opioids specifically recommended 
passage of the STOP Act.
    Ms. Nielsen. Yes.
    Senator Portman. Now the Administration is sort of on 
record officially. Can you give us your commitment today that 
you will support the STOP Act and help us to get this 
legislative fix in this one area completed so that we can begin 
to make progress in keeping the supply of these drugs out of 
this country.
    Ms. Nielsen. Yes, sir. I also look forward, should I be 
confirmed, to providing any technical assistance that is 
necessary to make sure that we can implement it effectively, 
working with the U.S. Post Office and working with Customs and 
Border Patrol to ensure that they have the resources and 
personnel they need to play their part.
    Senator Portman. Thank you. I have so many other questions. 
I will for the record ask some questions with regard to 
security in the faith community because this is one of the 
issues that we continue to struggle with. I will also be asking 
some questions on the management side per our discussion 
earlier about the complexity of the challenge that you have, 
and particularly workforce management. But, again, we 
appreciate the fact that you are here today as a nominee with 
your experience and your background to be able to help during a 
critical time.
    And, Mr. Chairman, please note that I am yielding back 38 
seconds.
    Chairman Johnson. I will note that I really appreciate 
that. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Senator Portman, for yielding 
back, and I will utilize those 38 seconds. No, just kidding.
    First of all, thank you for being here, and thank you for 
your willingness to serve. I am assuming you will get 
confirmed. Hopefully, Montana will be on your docket for places 
to visit so we can look at a number of things that your agency 
impacts in rural America--border security, airport security, 
and the like. Along the lines of airport security, the Law 
Enforcement Officer Reimbursement Grants, are you familiar with 
those at all?
    Ms. Nielsen. I am sorry. Could you repeat it?
    Senator Tester. Law Enforcement Officer Reimbursement 
Grants.
    Ms. Nielsen. Law enforcement, yes, sir.
    Senator Tester. OK. It is a program to help local law 
enforcement agencies to secure local airports. I think it is a 
really important program, just to let the cat out of the bag on 
what I believe about it. The Administration would have 
eliminated this program through their budget. I think it puts a 
whole bunch of things at risk by doing that because terrorists 
tend to go to the weakest link, and I think it provides 
opportunity for a lot of weak links.
    My crack staff tells me that the program is still at risk 
of elimination by the Administration. I want to know what your 
view is on those, and then I will have a follow-up. Go ahead.
    Ms. Nielsen. OK. Thank you, sir. Should I be confirmed, it 
is certainly something I would want to look into because, as 
you know, there is a mix of ways in which the Department of 
Homeland Security can work with State and local officials. The 
areas surrounding the secure area at airports is particularly 
vulnerable. It is a soft target.
    Senator Tester. Yes.
    Ms. Nielsen. You can walk in without screening. There is 
more that we need to do. DHS can provide training. They can 
provide information. What I would say is, yes, you have my 
commitment. There is a combination of resources that DHS needs 
to provide and work with State and local officials.
    Senator Tester. Good. I would tell you that I think that in 
the end, whether it is called a different program or not, but 
small-airport security is just as important as big-airport 
security.
    Ms. Nielsen. Yes, sir.
    Senator Tester. I would hope you would fight hard for that.
    REAL ID, it is an issue that the Senator from Oklahoma and 
I have in common. I will speak for myself. He will follow up 
later. But I have never been a big fan. There are a number of 
reasons why. I think we can get this pounded out, but it is 
going to require some visiting, some bipartisan visiting with a 
number of Senators to be able to make this work so that we do 
not end up doing things like in Montana, having a REAL ID that 
costs the citizenry additional dollars.
    I just need your commitment that you would be willing to 
work with us on this issue to try to move it forward, and like 
I said, it would be in a bipartisan manner----
    Ms. Nielsen. Absolutely.
    Senator Tester [continuing]. Where we would come together 
to get the solution, because it has been around as long as I 
have been here.
    Ms. Nielsen. Yes, sir.
    Senator Tester. It is a problem.
    Border security, a big issue. I am sorry I was not here 
earlier, so if I am asking you questions that have been already 
been asked on this, forgive me. The President has been an 
advocate for a wall on the Southern Border. As you well know, I 
serve as Ranking Member on the Appropriations Homeland Security 
Committee also besides this Committee. The question I have is: 
From your perspective, No. 1, I assume you have been on the 
Southern Border?
    Ms. Nielsen. Yes.
    Senator Tester. You have seen it. What is your view on a 
wall? And what is your view on technology?
    Ms. Nielsen. Yes. First of all, I just would like to, if I 
could, quote something Senator McCaskill said at the beginning. 
The President has stated, as have my predecessors at DHS--
certainly something that I share--there is no need for a wall 
``from sea to shining sea.'' What we need to do is work with 
the operators. Should I be confirmed, I would look forward to 
speaking with State and local officials, those on the ground, 
both law enforcement and Federal law enforcement, to include 
CBP, to understand where we need some sort of physical barrier.
    Technology, as you know, plays a key part, and we cannot 
forget it. There is a lot that we can do with technology to 
help secure our border.
    Senator Tester. In a much more cost-effective way, too, I 
might add. There was a report that was due by your office 
August 3, I believe, on a comprehensive review of what the plan 
is for the border. Today I did not ask my staff this morning, 
but we have not received it. That may be one of the reasons we 
have not marked up that homeland security appropriations bill.
    I guess, could you see if you could--assuming you get 
confirmed--put the gas on the pedal to get that? Because I 
think it is really important that we have a plan that we do not 
back into the plan, that we actually have a plan moving forward 
for the Southern Border.
    Ms. Nielsen. Yes, sir. I do think the plan, which I look 
forward to seeing should I be confirmed, also needs to be 
linked in the appropriate way to any appropriation or any 
other----
    Senator Tester. Oh, absolutely. I agree with you 100 
percent.
    Ms. Nielsen. I understand the need for it.
    Senator Tester. Do you have any plans off the top of your 
head--and you could use the last 2 minutes I have, but I do not 
want you to--on port security, what needs to be done there?
    Ms. Nielsen. I think on port security what I would say is 
we just need to continue to evolve with the times, so 
everything from cybersecurity threats we now face to 
additional, perhaps more innovative ways in which the threats 
are being----
    Senator Tester. Is there any technology that you know of 
right now that the ports do not have that they need?
    Ms. Nielsen. I am aware of some additional screening 
equipment that we are looking at piloting and using at the 
borders. I am not aware of the constraints that a port 
environment might provide, but certainly we need the best and 
brightest both in terms of personnel and technology at the 
ports.
    Senator Tester. OK. Thank you very much. I would like the 
Chairman to note that I yield back a minute and 13 seconds.
    Chairman Johnson. This is fabulous. [Laughter.]
    Senator Heitkamp. I think we all appreciate it, by the way.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman. I will not 
disappoint you. You know what is coming: a question on the 
Northern Border.
    Chairman Johnson. I know Senator Tester did.
    Senator Heitkamp. The Northern Border Threat Analysis was 
released in July after our bipartisan legislation that Senator 
Kelly Ayotte and I cosponsored. Obviously, when we look at the 
Northern Border, it is 5,500 miles with a very historic and 
significant partner in terms of Canada. But that does not mean 
that we can ignore our Northern Border threat assessment.
    DHS has already committed to me that items such as improved 
facilities, better recruitment and retention, and better use of 
technology will be addressed in this strategy, but that 
strategy is only a first step. The implementation of the 
strategy must be prioritized during the budget process, and I 
am just going to ask you a series of yes or no questions.
    Will you, if confirmed, commit to pushing in the next DHS 
budget for sufficient funds to execute the Northern Border 
strategy, including funds to begin improving facilities, 
improving recruitment and retention at remote and rural 
locations, and smart investments in technology to improve 
domain awareness?
    Ms. Nielsen. Yes, I will.
    Senator Heitkamp. Thank you. Will you commit to me that the 
Northern Border will be a priority of yours if you are 
confirmed?
    Ms. Nielsen. It must be, yes.
    Senator Heitkamp. Thank you. In order to fully understand, 
Montana and North Dakota share a border, so if you want to come 
to Montana, we will make it so that you come to Montana and 
North Dakota at the same time, and you will see that gap in 
border security that is particularly difficult in terms of 
recruitment and retention of staff and monitoring and securing 
the Northern Border facility. That would be that wide open 
space north of Minot all the way over through the Montana 
border. It is critically important that we get your commitment 
on the Northern Border issues.
    Another program within the Department of Homeland Security 
which I have taken a particular interest in is the countering 
violent extremism (CVE) section, and we have not heard a whole 
lot about it, but obviously, when the Chairman went through a 
number of those incidents, a number of those are really 
homemade, lone-wolf kinds of situations. We want to make sure 
that we have relationships within the organization and within 
the communities to avoid radicalization. Will you commit to 
evaluating the CVE program at DHS and reporting back to us in 
90 days on your initial plans regarding the program, its goals 
and its grants, and how you intend to prioritize the mission of 
this organization, which I think is a little at sea at the 
moment?
    Ms. Nielsen. Yes, I do.
    Senator Heitkamp. I think it is critically important, and I 
would just ask that you pay particular attention to that 
problem.
    I was struck by your opening statement where you announced, 
as we all do, that you believe in the principles of our 
founding documents and what constitutes our country. One of the 
great founding principles of our democracy is that we are a 
nation of laws. I think over the last couple of months we seem 
to find policies being announced in unconventional ways and 
policies being challenged in courts in ways that does not 
advance the goal of the Administration, in fact, just delays 
the goal of the Administration, but yet we are not sure who is 
doing the policy and how we can effect seamless integration and 
implementation if DHS is not involved.
    I want to give you an opportunity to respond to this 
question. If you are, in fact, confirmed and you determine that 
a policy announced from the White House, not DHS, is, in fact, 
potentially illegal and goes beyond what DHS is able to do 
within the confines of law or regulation, and is otherwise not 
in the best interest of DHS or the American public, will you 
take up and repeat the President's statement of policy before 
Congress and the American people and bend the law or regulation 
to fit the policy that has been stated? Or will you tell the 
President and the White House that he has proposed limitations 
on his power and otherwise is outside the bounds of law and 
regulation and beyond what is good for, in fact, the 
Department?
    Ms. Nielsen. Thank you for the question, Senator. I fully 
intend in all cases and in all ways at all times to fully 
comply with all laws. I will expect the same of any employee or 
member of DHS. I also would answer your question yes, I would 
definitely tell the President if I thought a particular policy 
violated any laws of our country. But perhaps more importantly, 
it would be my intention at every instance to speak with him 
and other White House staff prior to any announcement of policy 
to make sure they understand both operational constraints, 
legal constraints, resource constraints, and the views and 
insights of other stakeholders that would need to be part of 
its implementation.
    Senator Heitkamp. I think over the months we have had a 
suspicion that sometimes the right hand does not know what the 
left hand is doing. You come from roles that have been 
supportive, Deputy Chief of Staff and Chief of Staff kinds of 
roles. You are in a new role in this new job.
    Ms. Nielsen. Yes.
    Senator Heitkamp. That means that you have to represent the 
Constitution. You have to fulfill your constitutional 
obligations, and you have to be accountable to this Committee. 
I would appreciate ongoing dialogue and making sure that that 
commitment is actually carried forth.
    Thank you so much, and I would note that I have 48 seconds 
left on the clock.
    Chairman Johnson. Duly noted. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman. Ms. Nielsen, thank 
you for being here before us today and for your willingness to 
serve in this capacity. I also wanted to thank you for the 
opportunity that we had to meet in my office to discuss a lot 
of very specific issues related to the State of Michigan, and I 
appreciate that opportunity. If confirmed, I would look forward 
to the opportunity to work with you on those going forward.
    But, Ms. Nielsen, we have seen an uptick in hate crimes 
across this country and in my State of Michigan recently. I am 
concerned that this Administration has failed to give these 
incidents the full weight and the attention that they certainly 
deserve. So I just have a few questions.
    First, do you condemn white nationalism and white 
supremacy?
    Ms. Nielsen. Absolutely.
    Senator Peters. Do you condemn anti-Semitism?
    Ms. Nielsen. Yes.
    Senator Peters. Do you condemn Islamophobia?
    Ms. Nielsen. Yes.
    Senator Peters. Ms. Nielsen, I ask because, if confirmed, 
your tone and rhetoric as the Secretary is, of course, going to 
be extremely important for the men and women that you lead as 
well as for all of the American people. Let me turn to an 
incident in Charlottesville, Virginia. Do you agree that the 
individual charged with the murder of Heather Heyer was a white 
nationalist or, at a minimum, guided by extremist ideology?
    Ms. Nielsen. Yes, as I understand it, that is the case.
    Senator Peters. As the potential leader of a massive and 
diverse workforce, do you agree with the President's comments 
related to the Charlottesville incident, namely, that there 
were some ``fine people on both sides''?
    Ms. Nielsen. Sir, all I can say is what I believe and what 
I would do should I be confirmed, which is both that I disavow 
any form of violence--whether that is anti-Semitic, white 
supremacist, any kind of radicalization, anyone who chooses to 
espouse their views through violence--should I become the 
Secretary of Homeland Security, I would do all in my power to 
work with State and local governments and communities, both 
from an awareness perspective but also to provide that key 
information sharing that enables them to anticipate such 
threats. We cannot tolerate it as the United States.
    Senator Peters. In the aftermath of Charlottesville, 
Americans are urging Congress to examine the threat of white 
nationalist violence and potentially broaden the scope of the 
current countering violent extremism programs. Nevertheless, 
many of our Nation's leading civil rights and community groups, 
including the American Muslim communities, believe that the CVE 
program has been focused disproportionately on law enforcement-
led outreach and it is flawed and counterproductive in many 
respect.
    Now, I want to be very clear. Law enforcement should, in my 
mind, continue to engage community leaders across the country. 
That is a very important element. However, this type of 
engagement should in some ways be decoupled, I think, from CVE 
efforts. Without adjustment, the current CVE approach often 
foments--and I have heard this from folks in my State--the 
perception of mistrust, perceptions that are routinely 
exacerbated, unfortunately, by divisive and very polarizing 
messaging coming out of the Trump Administration.
    My question is: What are your thoughts on reframing the DHS 
CVE mission to focus on engaging communities through a full 
range of government programs and Agencies, for example, 
integrating the Departments of Education, Health and Human 
Services, and others? If you could expand on your thoughts on 
dealing with this program, I would appreciate it.
    Ms. Nielsen. Yes, sir. I do believe it requires the full 
weight and strength of the U.S. Government. There are many 
different avenues in which we understand that individuals 
either become radicalized or find themselves on a path toward 
violence. The short answer is yes, should I be confirmed, I 
would work with the other Cabinets to utilize the tools and 
resources and information that they have. But I do believe the 
only way this works is to constructively and continually engage 
communities. We have to build that environment of trust and 
respect so that they feel that they can come forward in a safe 
way, not face retaliation, and have alternatives to an 
otherwise violent path.
    Senator Peters. If confirmed, will you commit to studying 
this issue and include the perspective of America's ethnic and 
religious minorities in that assessment as you are moving 
forward?
    Ms. Nielsen. Absolutely. Yes, sir.
    Senator Peters. I appreciate that.
    As you know, Secretary Kelly visited my home State of 
Michigan very early in his tenure, which I appreciated that 
visit, particularly with the Arab American community, which is 
very large in the State of Michigan, and I would hope that you 
would commit to visiting Michigan as well given the concerns 
that have been expressed on a regular basis to me from that 
very large and vibrant and active community in the State of 
Michigan.
    Ms. Nielsen. Yes, sir.
    Senator Peters. I appreciate that.
    Acting Secretary Duke said that she would provide this 
Committee with information related to the portion of the DHS 
budget that is spent on domestic terrorism versus international 
terrorism. Will you ensure that that happens, if confirmed?
    Ms. Nielsen. Yes, I would.
    Senator Peters. An Ohio man was charged with murder 
following the Charlottesville incident. The Department of 
Justice (DOJ), as you know, has also opened up an 
investigation. As you know, unlike international terrorism, 
there is currently no domestic terrorism statute on the books. 
Do you think legislation is required to address domestic 
terrorism?
    Ms. Nielsen. Sir, it is a good question. As you know, I 
think many Americans in the wake of Charlottesville were 
surprised to learn that there is no such crime as domestic 
terrorism. That does not necessarily mean that the Federal 
Bureau of Investigation (FBI) and the Department of Justice and 
State and local law enforcement do not have laws and tools that 
they need. But should I be confirmed, it would definitely be a 
conversation I would like to have early on with Director Wray 
and the Attorney General to ensure that we do have the tools 
that we need to prosecute such activity.
    Senator Peters. Do you see any shortfalls now that you are 
concerned about?
    Ms. Nielsen. Not that I am aware of now, no, sir, but I 
would intend to study them.
    Senator Peters. But you do plan to have a thorough review 
of that?
    Ms. Nielsen. Yes.
    Senator Peters. Well, I would look forward to working with 
you on that as well to see what may potentially need to be 
done.
    Do you support laws and policies that allow police and 
other authorities to demand proof of citizenship or immigration 
status based on their perception that an individual might be 
undocumented?
    Ms. Nielsen. I do. I believe in enforcing the Federal 
immigration laws of the United States, and I defer to State and 
local laws, which I would also comply with and have any 
employee, should I be confirmed, who works with me comply with 
as well.
    Senator Peters. In your support, just kind of a clarifying 
question, in your mind what would constitute reasonable 
suspicion? How would that differ from racial profiling?
    Ms. Nielsen. It is a good question, and I would have to 
understand what the States would argue the difference would be. 
I would do that and be happy to report back to you after, 
should I be confirmed, or as a question for the record.
    Senator Peters. Very good. Thank you.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chairman. Good morning, Ms. 
Nielsen.
    Ms. Nielsen. Good morning.
    Senator Hassan. Congratulations on your nomination.
    Ms. Nielsen. Thank you.
    Senator Hassan. Thank you very much for meeting with me in 
my office last week. I greatly appreciate it.
    Before I get to my first question, I will just add to the 
chorus of those of us who have States with a Northern Border 
that we are looking for real attention to the Northern Border 
report and the improvements we should be making on the Northern 
Border.
    But I wanted to start today just on the issue of our post 
caliphate strategy in combating the Islamic State of Iraq and 
Syria (ISIS). As you have pointed out, as a former DHS Chief of 
Staff and as the current White House Chief of Staff, you are 
familiar with the current challenges of the Department and the 
nature of the terrorist threat to our homeland. For the past 
several years, DHS has been leading the effort to address 
foreign fighter flows from the United States and allied Western 
countries to ISIS battlefields in Iraq and Syria.
    Today the so-called caliphate is crumbling with the ISIS 
strongholds of Mosul and Raqqa having been retaken by allied 
forces. The thousands of foreign fighters who joined ISIS' 
ranks could form, as former FBI Director Comey put it, ``a 
terrorist diaspora'' that could seek to carry out attacks on 
Western countries.
    In your response to Committee questions, you alluded to 
steps that you would take, if confirmed, to address emergent 
threats and the next generation of terrorist threats. I would 
like you to specify what steps you will take, if confirmed, in 
the first 30 days to address the threat from our terrorism 
diaspora.
    Ms. Nielsen. Thank you. First, what I would do, of course, 
should I be confirmed, is to speak in detail with the 
leadership at DHS currently from intel and analysis and other 
parts of the Department. But, in general, I think what we have 
to realize is the threat has changed, as you have described. 
What we see now are more of an inspiration. There is less 
directed attacks, but they are no more dangerous when they are 
inspired.
    The other challenge we face with inspired attacks is we are 
seeing throughout the world, particularly in Europe but, 
unfortunately, here as well, as recent events in New York 
indicated, that terrorists or would-be terrorists and people 
inspired by terrorism use very common items to----
    Senator Hassan. I understand that. Just because of our time 
constraints, what concrete actions would you take? One of the 
reasons you have broad support is because you have been there 
recently and you are ready to lead.
    Ms. Nielsen. Yes, ma'am. I would say awareness, outreach, 
ensuring that our intel is requirements-based, moving toward a 
different model, making sure that we use a Joint Task Force 
like mentality within the Department, to make sure that we are 
leveraging all the different parts, and to be very clear and 
prioritize what the threat is, making sure that we are 
addressing today's threat and not yesterday's or the month 
before.
    Senator Hassan. Thank you, and I will likely follow up with 
you on that a bit.
    I also wanted to follow up on a couple of the questions you 
have heard about countering violent extremism. You referenced 
in your answers to Committee questions that DHS must increase 
its capabilities to address terrorists' exploitation of the 
Internet and social media for radicalization. You talked just 
now about the need to constructively and continually build up 
relationships, but can you tell us a little bit more about how 
you would actually do that?
    Ms. Nielsen. Yes. As I understand it, DHS, amongst other 
partners, has been working with the providers, social media 
providers, Internet providers. That is something that I would 
commit to continue. We need to, in partnership, find the 
terrorist substance on the Internet and remove it. We know they 
are using it to inspire, to instill propaganda, perhaps to 
cause confusion, as we have seen in other circumstances. But 
the Internet and social media are particularly vulnerable to 
such manipulations of information, so we need to work in 
partnership to remove them.
    Senator Hassan. You also mentioned in our meeting in my 
office the need to partner moms and imams, and I just am really 
trying to get at what you mean by that.
    Ms. Nielsen. We have heard--and I think what my reference 
was to, some of the different associations, nonprofit 
organizations, NGO's, and international partners that we spoke 
to when I was at DHS suggested that they found in their 
experiences of best practice the best way to do the community 
outreach and to increase awareness was to work in particular 
with those two groups of participants in those lives.
    Senator Hassan. I am sorry for interrupting, but, again, 
time is short. DHS has a unique office called the Office of 
Community Partnerships (OCP) that does exactly what you are 
talking about and what you have referenced in answers to a 
couple of questions now. But while you were at DHS as Chief of 
Staff, the number of personnel in that office was cut in half, 
the grants program was eliminated, and the Director of the 
office resigned.
    What is more, in your first few days at DHS, you rescinded 
previously awarded grants made to several organizations. Among 
the groups that had their grants rescinded was a group of 
reformed white supremacists who were working to pull others out 
of violent white supremacist groups and the Muslim Public 
Affairs Council, which has a track record of engaging the 
Muslim American community throughout the country on this kind 
of issue.
    Can you tell me the reason why you took these actions at 
DHS? Specifically, why did you rescind grants that had been 
carefully vetted? How does this harmonize with your desire to 
increase DHS's capability to address terrorist exploitation of 
the Internet?
    Ms. Nielsen. Yes, ma'am. I think the short answer is it was 
an attempt to ensure that any grants that were distributed 
would, in fact, be effective. As you know, the awards were pre-
awarded, if you will, just prior to the new Administration. 
What then-Secretary Kelly did was put a hold on the award, the 
final announcement of those grants, and asked the Office of 
Community Partnership to relook at the metrics so that we could 
build the metrics in at the front end to ensure that any 
taxpayer money was successful. Track record was one of the 
considerations, as well--I am sorry.
    Senator Hassan. No. Go ahead. Track record--so the question 
is: What has been done since? Because I would assume that those 
metrics and that vetting could have happened by now. It is not 
my understanding that we have issued more grants, and meanwhile 
the personnel has been cut in half. It does not speak to a real 
desire or sense of urgency about this.
    Ms. Nielsen. Yes, I look forward, should I be confirmed, 
but just in general, I look forward to hearing about the 
results of the grants. They have been awarded, as you know, but 
it has been 4, 5, or 6 months, depending on the grant. So the 
metrics are in place. The assessment and measurement will 
continue. I am very hopeful that we will find best practices 
that we can then scale and that we can then work with this 
Committee to ask for any additional resources, personnel, et 
cetera, that we would need to do just that. It is a vital part 
of what DHS does. We just need to make sure we do it in a very 
effective way.
    Senator Hassan. Thank you. Thank you for your answer.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you.
    On September 5, the Administration announced that it was 
ending the Deferred Action for Childhood Arrivals (DACA). Prior 
to that date, were you part of any decisionmaking process to 
terminate DACA?
    Ms. Nielsen. Prior to that, it sounds a little bit 
esoteric, but I was instrumental in putting together the policy 
process at the White House, so there were a series of meetings 
within the interagency at various levels of government that I 
either helped coordinate in terms of establishing a process. In 
some cases I participated as one of the Deputy Chiefs of Staff.
    Senator Harris. You were a part of the meeting that was 
held in the White House in the Roosevelt Room in late August 
that involved Attorney General Jeff Sessions, White House 
Senior Adviser Stephen Miller, and DHS Acting Secretary at the 
time, Elaine Duke?
    Ms. Nielsen. I believe so. Yes, ma'am.
    Senator Harris. As you know, more than 2 months have passed 
since the Administration decided to end the DACA program for 
nearly 700,000 young people. During our meeting last week, when 
the issue of DACA was raised, I was encouraged to hear you say 
that you want to work on this.
    Ms. Nielsen. Absolutely.
    Senator Harris. DACA recipients include, as you know, 
hundreds of thousands of individuals who are enrolled in 
colleges. They are working in Fortune 100 companies. They are 
serving in our military. Every day since that announcement was 
made, and even before, they wake up terrified. Every night they 
are afraid that there is going to be a knock on their door at 
midnight, removing them from their home and tearing apart their 
family.
    Under these circumstances do you agree that legislation 
must be passed to protect these young people before the end of 
this calendar year?
    Ms. Nielsen. I believe that we must and we owe it to them 
to find a permanent solution. It is no way to expect anyone to 
live a month or 2 months at a time.
    Senator Harris. While Congress works on this issue--and 
hopefully we will be working in a bipartisan way, and I have 
every hope that that is, in fact, what is going to happen. If 
confirmed, will you commit that these young people will not be 
an enforcement priority while Congress is working to fix this 
problem?
    Ms. Nielsen. Yes, ma'am.
    Senator Harris. In order to participate in the DACA 
program, the government asked these applicants to share 
personal information about themselves and their families so 
that they could qualify for DACA. A Frequently Asked Questions 
document that was available on the DHS website stated that 
their personal information would not be used for enforcement 
purposes. Two weeks ago, I sent a letter with 38 other United 
States Senators to DHS asking the agency to keep its promise by 
not sharing the information it demanded from these young people 
in order to deport them. We have not received a response.
    If confirmed, do you commit that this information will not 
be shared for enforcement purposes?
    Ms. Nielsen. First, I commit to you that we will get you a 
response.\1\
---------------------------------------------------------------------------
    \1\ The information from Ms. Nielsen appears in the Appendix on 
page 246.
---------------------------------------------------------------------------
    Senator Harris. Thank you.
    Ms. Nielsen. Secondarily, yes, as I understand it, there 
are extraordinarily limited circumstances that involve very 
specifically national or public safety. To my knowledge, there 
are no other reasons or exceptions to enable that information 
to be shared for any enforcement purpose. If there are any, I 
will commit to you to immediately come and talk to you about it 
and work out a solution together.
    Senator Harris. Will you commit to this Committee, if 
confirmed, that you will make that interpretation, which is 
that that information will not be shared for enforcement 
purposes, that you will make that policy position clear to all 
members and employees of DHS?
    Ms. Nielsen. Absolutely.
    Senator Harris. Thank you.
    At a September 27th hearing, I asked Acting Secretary Duke 
to extend the October 5th renewal deadline for DACA recipients. 
It did not happen. It has been reported that roughly 21,000 
recipients were not able to gather the documentation and the 
$495 that was required as part of the filing before the 
deadline.
    If confirmed, will you reopen the application process and 
allow these individuals the opportunity to renew their status?
    Ms. Nielsen. I would commit to you to look into it. I am 
not familiar with the specific numbers. But if there are 
extenuating circumstances that we should take into 
consideration, I would look into those and talk with you 
further.
    Senator Harris. I would urge you that part of the 
extenuating circumstances that should be taken into account is 
a national survey that found 57 percent of Americans say that 
right now they do not have the ability to pay $500 of an 
unexpected bill. Additionally, there have been a number of 
natural disasters around the country, including my own home 
State, where Americans have lost their entire belongings, their 
paperwork, and they are barely getting through the day, much 
less have the ability to compile extensive documentation and 
come up with $495. I would urge you to prioritize that fact 
when you think of the extenuating circumstances.
    Ms. Nielsen. Yes, ma'am.
    Senator Harris. Thank you.
    On February 20th, DHS released a memo that included seven 
factors for immigration enforcement. During a ``Meet the 
Press'' interview on April 16th, former Secretary Kelly stated, 
``Just because you are in the United States illegally does not 
necessarily get you targeted.'' I am quoting him. ``It's gotta 
be something else. And we are operating more or less at the 
other end of the spectrum, and that is criminals, multiple 
convictions.''
    Do you agree with that assessment?
    Ms. Nielsen. Yes, I agree that we should prioritize 
criminals and any others that in any way are concerning from a 
national security perspective.
    Senator Harris. And the definition of ``criminals'' is 
what?
    Ms. Nielsen. I would defer to you, but I would follow the 
law. Whatever the law tells me a criminal is, that is what we 
would target, and nothing less than that.
    Senator Harris. In deference to me--and I appreciate 
that--I would urge you to consider the definition of 
``criminals'' to be people who have violated the law in terms 
of violations of the Penal Code, and those are criminals, as 
opposed to people who are undocumented and in this country 
because of situations such as the Development Relief and 
Education for Alien Minors (DREAMers), which is that they were 
brought here as young children and know no other home except 
for this.
    Ms. Nielsen. Yes. The criminality that I would be talking 
about with respect to an enforcement priority is above and 
beyond the original illegal entry.
    Senator Harris. It has been widely reported that between 
January and September of this year, ICE arrested nearly 3 times 
the number of individuals with no criminal history as compared 
to the same period last year. If DHS is, in fact, focused--as 
you have indicated and, if confirmed, under your leadership--on 
true criminals, it is clear that the front-line officers have a 
different impression. If confirmed, will you issue a written 
directive to the agents that they prioritize enforcement 
activities in a way that targets criminals who pose a public 
safety threat and not DREAMers or DACA recipients?
    Ms. Nielsen. Yes, although I will say I understand that to 
be the current policy. But if there is any question about it, 
we will clarify.
    Senator Harris. OK. In particular, will you agree to 
issuing a written directive to the agents that that is the 
policy of the agency?
    Ms. Nielsen. Yes, I would or, if appropriate, Acting 
Director Thomas Homan would.
    Senator Harris. Great. Thank you.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, Mr. Chairman.
    Ms. Nielsen, thanks for being here and for your leadership 
in the past, what you are doing currently right now to be able 
to serve the Nation, and your willingness to be able to go 
through this process. This is not a fun process to be able to 
go through, and all the paperwork and everything that you have 
to be able to do. Thanks for stepping up to be able to take 
that leadership for it.
    Ms. Nielsen. Thank you, sir.
    Senator Lankford. Let me ask you a whole series of 
questions. One of them is a hiring issue. In Customs and Border 
Patrol and several other entities within DHS, it takes well 
over the standard 100 days for hiring, which is, again, way too 
long for the Federal hiring process. In Customs and Border 
Patrol, there are around 450 days to be able to hire one agent.
    There was a request put in in the past for an additional 
$100 million to be able to help fix that process. That is on 
top of the $65 million that was put in place last year to be 
able to help in the process. That is $165 million to be able to 
improve a very broken process.
    My question for you is: How do we get this fixed so that it 
does not take 450 days to be able to hire a person to be able 
to help us in Customs and Border Patrol? Why does it take $165 
million to fix the process?
    Ms. Nielsen. That is a very good question. I think that 
hiring is something that would be at the top of my priority 
list, should I be confirmed. Senator Heitkamp earlier mentioned 
very specific, for example, concerns and difficulties we have 
in hiring for the Northern Border. Cybersecurity is another 
area, as you know, where we have difficulty in not only hiring 
but retaining qualified people within the Department.
    We need to look at it holistically. The system needs to 
keep up with the times. Whether that is the way in which we are 
advertising, the way in which we are allowing those to apply, 
as I understand it, unfortunately, some of the websites, for 
example, where jobs are listed, the links are bad. Some of this 
is something that we can--low-hanging fruit, if you will. But 
from a holistic perspective, we have to have the internal 
controls in place to ensure that not only on the hiring side 
but then all the way through the cycle of retention and 
professional development.
    As to cost, should I be confirmed, that is certainly 
something that I would look into. I am not familiar with that 
particular----
    Senator Lankford. OK. Let us walk through that. I serve on 
the Appropriations Committee, as well as Homeland Security 
here, so I am on both the authorizing and the appropriating 
side of this. This is something I track very carefully, and it 
is something I think we can do for less than $165 million to be 
able to fix the broken process. But at the end of the day, we 
have to be able to reform how we are doing hiring and what 
happens with hiring.
    Senator Tester brought up to you earlier a request that had 
been put in already to the Administration by August the 1st to 
get a comprehensive plan for border security.
    Ms. Nielsen. Yes.
    Senator Lankford. That is something that has been mentioned 
by multiple entities. It needs to be Northern and Southern 
Border. Obviously, the first part of this is a discussion of 
the Southern Border. You have already mentioned that we are not 
talking about a wall from sea to shining sea. We are talking 
about technology in some places, clear markings in other 
places, and walls and others. We need to be able to know not 
only the costs but the strategy for that on the Southern 
Border, and we are going to want to know the same thing for the 
Northern Border.
    For instance, there is a much higher number of unmanned 
aerial systems (UAS) on the Southern Border than there is on 
the Northern Border, though the Northern Border is more open, 
quite frankly, than the Southern Border is, and it is 2,000 
miles longer. We are going to need to get some greater 
attention to the Northern Border and a plan and to be able to 
figure out costs. The initial cost estimate that came to us in 
the Appropriations Committee was about $20 million a mile for 
the construction of the wall. Ten years ago, when we were 
building 650 miles of fence that exists currently, that was 
about $2.5 million a mile. I am trying to figure out why the 
cost estimate has gone up 10 times in 10 years. We do have 
inflation, but it is not that great.
    That is an area that we are just going to need to get 
greater clarity on to be able to determine how we are actually 
securing the border, but doing it was the taxpayers' dollars in 
mind as well.
    Ms. Nielsen. Yes, sir. I look forward to working with you, 
should I be confirmed.
    Senator Lankford. I appreciate that very much.
    We have spoken as well before about the election security 
issues and what we are facing with foreign actors trying to 
interfere not only in our free speech but in our election 
process itself. One of the things that I raised at that time 
when we spoke last was about the length of time it took to be 
able to notify States that they were currently being probed by 
foreign actors. That is a length that is much too long. It is 
around 14 months from when a State was probed by a foreign 
actor to they actually were notified, hey, you are being 
probed. We have to notify them.
    The two main questions that I will have for you to be able 
to work together on is: One is clearances for State elected 
officials so we could have a more rapid communication. The 
second one is, at the end of an election time, that it is an 
auditable election, that we will work with States not to 
determine what their election system is. That is the role of 
the State. Their equipment, all of those things, that is the 
role of the State. But to be able to make sure a State at the 
end of an election can actually audit their election would be 
helpful to be able to help in that process.
    What I am looking for is just cooperation on trying to deal 
with some things that I would assume the American people will 
assume of us will be done a year from now when there is a 
large-scale Federal election again.
    Ms. Nielsen. Yes, sir, you have my commitment. In fact, 
when I went to vote this week in the Virginia election, I was 
quite concerned with the scanning machine and started asking a 
variety of questions on what the security on the scanning 
machine was for the ballot. I think we all have to be very 
aware and work with the State and local officials. The role of 
DHS, as you know, is to respond to requests from those 
officials, ensure that they have the clearance so that they can 
receive the information, and then offer a variety of tools to 
ensure, from supply chain all the way through to that 
dissemination of the voter rolls, that it is protected.
    I also would just offer that redundancy is very important 
on the back end with the audit, so whether it is paper ballots 
or whether it is physically moving the ballots, as they do in 
California, as chaperoned by the Highway Patrol, we need to 
ensure the integrity of our electoral system.
    Senator Lankford. I completely agree.
    Let me bring up a couple more things rapidly to you. One I 
brought up to several folks, both with FEMA and now in your 
leadership with DHS, that we have a longstanding issue where 
Congress determined in the 1990s that nonprofits were eligible 
for disaster aid. That in the 1990s was redefined to say it 
does not include houses of worship, so churches, synagogues, 
and mosques are not allowed to get FEMA disaster aid, though 
often those houses of worship are the location for distribution 
of food, supplies, clothing, everything else in the area, but 
they have been pulled out and defined as not nonprofits, which 
I think is an overstatement of what the law is. That is 
something that we can try to help clarify, but it is something 
I also believe the Administration already has the authority to 
be able to help clarify: when it says nonprofits, that does not 
exclude faith-based nonprofits, especially after the Trinity 
Lutheran case earlier this year, clarifying from the Supreme 
Court that we cannot ever go to a house of worship and tell 
them you cannot participate in your government if you are 
faith-based. That gives an unfair decision for any house of 
worship to say, yes, you can participate with your government 
as long as you give up your faith first. That is not something 
that we are going to do. That is an area we will just be able 
to maintain that conversation.
    Along with Senator Tester, I want to be able to bring up 
the REAL ID issue, and the main point for me is waivers and 
decisions on waivers and how we are going to actually settle 
the issues for the States that are still in that zone right now 
of making decisions. They need to be made as early as 
possible----
    Ms. Nielsen. Yes, sir, I look forward to----
    Senator Lankford [continuing]. The longer it takes, the 
more difficult it is for actually trying to be able to arrange 
things around that.
    Ms. Nielsen. Yes, sir.
    Senator Lankford. Thanks again for your service.
    Ms. Nielsen. Thank you.
    Chairman Johnson. Senator Hoeven.

              OPENING STATEMENT OF SENATOR HOEVEN

    Senator Hoeven. Thanks for being here today.
    Ms. Nielsen. Good morning, Senator.
    Senator Hoeven. Congratulations on your nomination. I 
certainly look forward to working with you.
    Ms. Nielsen, what are the key steps in your opinion to 
securing the border and to enforcing immigration law? What are 
the key metrics that you will use to evaluate performance?
    Ms. Nielsen. I would just say at the start that metrics are 
vital. I just do not think that we can effectively and 
efficiently spend taxpayer money without them. We need to work 
with stakeholders. We need to work with this Committee and 
others to ensure that we do have metrics that actually are 
indicative of performance. sometimes metrics can be designed in 
such a way to be a compliance exercise. That is not what we 
need. We need something that actually demonstrates the 
performance.
    Having said that, the steps that I need to take, that we 
need to take, I think we need to look at it as a very 
integrated system. I believe you and I spent a little time 
talking about it is not just physical barriers. It is 
personnel, it is training, it is technology. It is working with 
State and locals. It is understanding a variety of things that 
might be needed in special circumstances, such as surge control 
or if there is a natural disaster.
    I look forward to reading the border strategies that I know 
DHS is finalizing, and certainly, should I be confirmed, at 
that time would look forward to working with you in more 
detail. But I do not think this can work either from an 
appropriations perspective or a true goal of security without 
those metrics. I do think they should be transparent, ones that 
can be measured, ones that are repeatable, and ones that we 
have the ability to update if, in fact, they prove not to be as 
useful.
    Senator Hoeven. That also includes making sure that you are 
enforcing immigration law within the country as well as 
security on the border----
    Ms. Nielsen. Yes, interior, of course, as well.
    Senator Hoeven [continuing]. When you talk about those 
metrics.
    Ms. Nielsen. Yes, sir.
    Senator Hoeven. That needs to be measured and understood.
    Ms. Nielsen. Correct.
    Senator Hoeven. Not only by DHS, but the general public as 
well, right?
    Ms. Nielsen. They should be transparent, yes.
    Senator Hoeven. For the formulation of good policy.
    Ms. Nielsen. Agreed.
    Senator Hoeven. UAS, I think some of my colleagues have 
talked about the Northern Border, and I certainly want to 
emphasize the Northern Border as well as the Southern Border. I 
want to ask for your opinion in regard to the use of unmanned 
aircraft technology for border security.
    Ms. Nielsen. I think it provides us a very interesting 
capability as a force multiplier. The ability to have that not 
only situational awareness but the sensors that we now have 
available to us enable us to detect a variety of threats that 
could be coming across our border, anything from something in 
the CBRNE perspective through to people through to illicit 
goods. It is a force multiplier, so we absolutely should be 
looking at it, the ways in which to integrate it. As any new 
technology, we also need to look at the vulnerabilities and 
make sure that we are securing it up front, not trying to add 
security on the back end.
    Senator Hoeven. You would support the use of unmanned 
aircraft technology as a piece of border security on both the 
Northern and the Southern Border?
    Ms. Nielsen. If the operators and the folks on the ground 
believe in any way it can be useful, absolutely.
    Senator Hoeven. What about defending against unmanned 
aircraft, whether that be at the border or even address it in 
terms of potential threats within the country?
    Ms. Nielsen. That is the flip side.
    Senator Hoeven. Right, exactly.
    Ms. Nielsen. That is where in our use we would have to at 
the front end think about the vulnerabilities that they could 
provide or how they could be use to do us harm. As you know, we 
have seen unmanned vehicles, small ones, everything from 
improvised explosive devices through to, unfortunately, 
dispersal devices for chemical or bio attacks. We have to take 
that seriously. As I understand it, there is some work that DHS 
is undertaking today on that. But that is one that we have to 
watch very carefully and include in our planning and our 
resourcing to be able to combat.
    Senator Hoeven. Right. It raises everything from privacy 
issues----
    Ms. Nielsen. Yes.
    Senator Hoeven [continuing]. All the way to a potential 
threat, as you said. In Grand Forks, North Dakota, at the Grand 
Sky Technology Park, which is part of the Northern Plains test 
site, one of six test sites in the Nation for UAS, we are 
already working on some of those issues. We have a partnership 
between not only the test site but also the University of North 
Dakota School of Aviation, one of the premier schools of 
aviation in the world, with the U.S. Air Force, with Customs 
and Border Protection, which has responsibility for 900 miles 
of border security all from the Great Lakes all the way out 
west through most of the Montana border, 900 miles. Then we 
have companies like Northrop Grumman and General Atomics out 
with Predator, Reaper, and Global Hawk.
    This is an opportunity for us to work with DHS on 
developing all these things UAS. You and I talked about this in 
my office. I appreciate that. But, again, I ask for your 
attention to looking at how we can partner to accomplish 
exactly what we are talking about with UAS technology.
    Ms. Nielsen. Yes, sir, you have my commitment.
    Senator Hoeven. OK. The other thing I wanted to ask about 
is, we saw this attack in New York City and in this case the 
use of a truck. Talk to me about not only how we prevent or do 
more to prevent those types of attacks, respond to them, but 
also how in your opinion we can address this radicalization of 
people either who are radicalized overseas or here in this 
country, so all three. How do we prevent? How do we respond? 
How do we address the radicalization?
    Ms. Nielsen. Yes, sir. On the protection front, as you 
know, DHS offers a variety of tools and resources with respect 
to any soft target attack. It is vital that, in my opinion, 
they continue to do so. Should I be confirmed, it would 
certainly be something I would want to work with State and 
local law enforcement to ensure that they are receiving what 
they need. But this is everything from information sharing to 
vulnerability assessments of soft targets through to active 
shooter drills and exercises. The JTTFs that form with the FBI 
are crucial, ensuring that they have the tools that they need. 
I would be working closely with the Department of Justice to 
ensure that we are offering everything we can from a Federal 
Government perspective.
    As to the radicalization issue, in my mind we have to look 
at it at almost two different points, the first point being, 
why and how does an individual become radicalized within our 
country. What are they reading, what are they accessing, what 
are they hearing, what are they not reading, accessing, or 
hearing that enables them to become radicalized?
    The second point is once they are radicalized, what can we 
do to off-ramp them, if you will, to help them see that there 
is a better, more productive way to express their views that 
are protected in this country, but to do so in a nonviolent 
manner?
    Should I be confirmed, I really look forward to working 
with DHS, but also to the many organizations, law enforcement 
communities, and, frankly, international partners who have 
looked at these issues to determine the best practices that we 
can use to raise awareness and eliminate this threat.
    Senator Hoeven. That ability to network, to really network 
with all the other law enforcement agencies, security agencies, 
not only at local, State, and Federal level, not only in this 
country but other countries, is such a huge part of what you 
do.
    Ms. Nielsen. Yes, sir.
    Senator Hoeven. You referenced that, and I think that is 
absolutely right.
    Thank you for your willingness to step up and serve in a 
very challenging and demanding position, a very important 
position. We appreciate it.
    Ms. Nielsen. Thank you, sir.
    Chairman Johnson. Thank you, Senator Hoeven.
    Before I throw it to Senator Carper, as long as you raise 
this issue, I want to kind of follow down the same path for 
continuity. One thing I was struck by in the recent New York 
terrorist attack using a truck, apparently he read the how-to 
manual on the Internet that showed what kind of truck gives you 
better maneuverability, two wheels on the back axle so you have 
a greater chance of running over people. What is your 
understanding--I am not a lawyer--of the current state of the 
law of the lawfulness of that type of how-to manual on the 
Internet? What do you think we ought to do in terms of 
explore--for example, we do not allow child pornography on the 
Internet. It is illegal to download it. What should we do in 
terms of that type of how-to manual, that kind of incitement to 
violence on the Internet?
    Ms. Nielsen. I would offer that I think we need to have a 
serious discussion, frankly, in conjunction with the Executive 
Branch and the Legislative Branch to really look at this issue 
of content. Obviously, our rules and the values that we hold 
dear enable each one of us to speak freely within this country.
    Having said that, there is a point at which certain very 
specific descriptions of weapons, how to conduct attacks, we 
often jump right into terrorists' use of the Internet, but 
there is something before that. I do think we have to have that 
conversation and then work with those who provide and enable 
that information on the Internet to find a way to identify it 
and remove it should we determine that it is not appropriate.
    Chairman Johnson. Well, I will want to work very closely 
with you as you explore that because this is a different kind 
of enemy.
    Ms. Nielsen. Absolutely.
    Chairman Johnson. The old ways, the old tools just are not 
working. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks very much. Thank you for visiting 
with me earlier this month, and thank you for being here today.
    I want to just say to Senator McCaskill, it is nice to have 
you back, and we are glad to hear that Joe is on the mend.
    A number of us on this Committee like to focus on root 
causes, not just addressing the symptoms of problems, but what 
are the root causes. I will just take a very short time. What 
would you say are the root causes of hundreds of thousands of 
people trying to get out Honduras, Guatemala, and El Salvador 
to get into the United States? What are the root causes of 
that?
    Ms. Nielsen. Yes, sir. I think it is push and pull, as we 
often say in common parlance, but generally to me what that 
means is the conditions on the ground unfortunately in some of 
these countries are such that the citizens there believe they 
have a better opportunity if they go elsewhere. On that note, 
what I would do, should I be Governor--should I be confirmed--
--
    Senator Carper. Governor--that is a good job, I can assure 
you. [Laughter.]
    Ms. Nielsen. We could throw that in here, should I be 
confirmed is to continue to work in partnership with those 
governments. We have to increase the prosperity there. There is 
a variety of programs you and I have discussed, including the 
Alliance for Prosperity. But to really help the community find 
jobs, track the private sector, enable the community to be 
resilient in such a way that it in and of itself provides the 
type of environment that citizens would want to stay.
    I also, as you know, feel very strongly that our drug 
demand in this country is also an underlying factor of that 
push, if you will. Our drug demand is like no others. 
Americans, unfortunately, we have a higher drug rate--not only 
death rate from it, but use of illegal drugs--than any other 
country.
    Senator Carper. Thank you. That is good.
    Ms. Nielsen. Yes.
    Senator Carper. As you know, the Comptroller General's 
Office produces every other year at the beginning of a new 
Congress something called the ``High-Risk List'' and high-risk 
ways of wasting money. One of the things they raised for the 
first time on the High-Risk List about 4 years ago was the fact 
that we are spending a lot of money in this country trying to 
prepare for and fight against the rising level of the oceans. 
Delaware is the lowest-lying State in America. We see the 
vestiges of climate change and sea level rise every day in my 
State. Our State is sinking. The oceans are going higher.
    Do you believe that climate change is occurring that has 
caused temperatures to rise over the past 30 years or so and 
that it is primarily caused by human beings?
    Ms. Nielsen. I do absolutely believe that the climate is 
changing. I cannot unequivocally state it is only caused by 
human----
    Senator Carper. That was not my question.
    Ms. Nielsen. There are many contributions to it, yes. sir.
    Senator Carper. My question was: Do you believe that it is 
primarily caused by human beings?
    Ms. Nielsen. I believe that climate change exists. I am not 
prepared to determine causation.
    Senator Carper. Really? Why not?
    Ms. Nielsen. Because I believe----
    Senator Carper. There are people from almost 200 nations 
gathered today in Bonn focused on this issue, on this issue 
alone. Ninety-eight percent of our scientists that have said 
anything about this say this is a problem and we are the root 
cause, we as humans. For you to sit there and say, well, it is 
not really clear, something is happening here, and I think it 
is clear.
    I will go on to my next question. I enjoyed meeting with 
you. I think you are smart. I think you are well spoken. I 
worry a lot about your leadership and your experience as a 
leader and your lack of experience. I have been privileged to 
have a chance to provide some leadership in 23 years in the 
Navy. I have been privileged to be Governor of Delaware for 8 
years, and hopefully I provided decent leadership there. The 
idea of me taking on an agency that has 240,000 employees 
scattered all over the world and leading them in the right 
direction, it would be daunting for me. Tom Ridge, one of my 
closest friends, it was daunting for him. Janet Napolitano, a 
close friend, daunting for her. Jeh Johnson, close friend, 
daunting for him.
    Why should we believe that as smart as you are and as well 
spoken as you are that someone who, as far as I know, never led 
an organization of even 100 people much less 240,000 is ready 
to take on this responsibility this large now?
    Ms. Nielsen. Yes, sir. I would like to offer that I have 
been privileged to have opportunities throughout my life, both 
professionally, volunteer, and in other endeavors to lead, and 
to me a big part of managing is to be very clear about mission, 
to be very clear about roles and responsibilities, to empower 
those that I work with, ensure that they have the tools and 
resources they need.
    I think many of the leadership skills that have brought me 
to this place are scalable. What I would do, should I be 
confirmed, is work with the operational components, and ensure 
that my expectations of them are very clear. I believe in 
accountability. Just as I would hope that you would hold me 
accountable, I will hold others accountable. But I also believe 
that we need to acknowledge successes.
    What I would be led by are my principles of leadership: 
integrity, transparency, teamwork, and unity of effort. I would 
work with the men and women of DHS to ensure not only that they 
have the tools that they need, but that we consistently have 
the opportunity to audit, have internal controls, and hold them 
accountable.
    Senator Carper. Do you pledge to respond to all reasonable 
requests for information from Democrat and Republican, majority 
and minority Members of this Committee?
    Ms. Nielsen. Yes, you have my commitment.
    Senator Carper. Good. Talk to us about the reorganization 
or possible reorganization of the National Protection and 
Programs Directorate? I think there is a fair amount of 
agreement between you and me. Just talk about what your views 
are.
    Ms. Nielsen. Yes, sir. I know it has been said many times, 
so I will just say it quickly I do think that, should I be 
confirmed, I would very much appreciate an opportunity to work 
with you to change the name. It truly does confuse 
stakeholders. It eliminates some of the positive morale that 
comes from having a very clear mission statement, so I will 
leave it at that. I know we have talked about that and others 
have talked with you about it extensively.
    Cyber is an operational mission. Other parts of critical 
infrastructure security and resilience today are operational 
missions. Any reorganization should take that in consideration 
and find the best way to balance those who should be at 
headquarters, if you will, in the National Capital Region and 
those who should be in the field working directly with the 
owners and operators of critical infrastructure, the private 
sector, and, of course, our State, local, tribal, and 
territorial partners.
    There is more that we can do. I do not know that we need to 
do it for any other reason than driven by the mission.
    Senator Carper. Good. Thank you.
    I think I am the only Democrat I know that quotes Richard 
Nixon. Richard Nixon once said that the only people who do not 
make mistakes are people who do not do anything. I make a lot 
of mistakes. I have made a lot of mistakes in my life. I have 
learned probably as much from my mistakes as I have learned 
from the things that I have done well. Talk to us about a 
couple of your biggest mistakes and how you learned from them.
    Ms. Nielsen. Yes, sir. A couple of my biggest mistakes are, 
in general, I have learned to speak quickly, clearly, and 
repeatedly when I disagree with something that is being 
proposed as the best cause of action, the most effective way.
    I also have learned repeatedly through a variety of 
experiences that policy cannot be made in a vacuum. It must be 
informed by those operators and by operational environments. 
There are many times when we all have had great ideas with 
policy hats on, but they are just not going to be implemented 
in a way that reaches the original intent.
    I would also say that resources go hand in hand with any 
policies and strategies. Authorities must be looked at in terms 
of the best way to leverage them. There have been times when I 
have perhaps suggested that a new authority was needed from a 
policy perspective, only to find out upon further examination 
that there was authority, it just needed to be differently 
leveraged. I think doing that complete review before looking 
for additional authority is very important.
    Senator Carper. Richard Nixon would be pleased. Thank you.
    Chairman Johnson. Senator Daines.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. It is nice to hear you quoting Richard 
Nixon there, Senator Carper.
    Senator Carper. I have other Nixon quotes you would not be 
quite as fond of. [Laughter.]
    Chairman Johnson. Can you do an imitation?
    Senator Daines. Well, I was quoting John F. Kennedy this 
week, too, so that is good. Good bipartisan quotes.
    Ms. Nielsen, it is great to see you again.
    Ms. Nielsen. Thank you, sir.
    Senator Daines. Thank you for your service. Thank you for 
your willingness to continue serving our Nation as our 
Secretary of Homeland Security.
    Regarding leadership, I think it is a fair question from 
Senator Carper. I will note that two prior Secretaries of 
Homeland Security both have Stated that you are a leader for 
our times in the letter that was submitted to the Committee, as 
well as a son of a four-star Marine that sat right there not 
too long ago, the fact that he put his full confidence in you 
to lead that organization working with him tells me a lot about 
his confidence in your leadership, and I have a lot of 
confidence in Chief of Staff Kelly here, of picking great 
people to lead organizations. I am confident in your leadership 
abilities.
    Ms. Nielsen. Thank you, sir.
    Senator Daines. Ms. Nielsen, one of the greatest and under-
told successes of this Administration has been the result of 
President Trump's signaling that the United States will enforce 
its laws. This has led to quantifiable improvements at DHS 
under the leadership of General John Kelly and then Secretary 
Kelly with you as his Chief of Staff. Apprehension rates for 
illegal Southwest Border crossings have dropped nearly 30 
percent year to date compared to last year, and some months 
have seen over a 60-percent reduction. Drug seizures have 
increased by many measures, and morale has improved as well.
    In your prehearing questionnaire, you stated border 
security was the highest priority from a risk perspective. As 
Secretary, how will you maintain this positive trajectory we 
have already seen, mitigating the risk and further securing our 
borders?
    Ms. Nielsen. Yes, sir, thank you. I would just offer I 
think deterrence plays a key part here, deterrence and 
partnership. When I was at DHS as Chief of Staff under then-
Secretary Kelly, we had the opportunity to travel and meet with 
government officials in our southern neighbors and to tell them 
very publicly and to speak directly to their people in some 
cases, ``Please do not take this dangerous journey. It is 
dangerous to you. It is dangerous to your children. You are 
putting your life in the hands of those who have no other 
concern for you than the money that they can take from you 
trying to smuggle you or traffic you across the border.''
    I think the constant communication with our partners is 
important. Deterrence is important, and the part of deterrence 
that I think General Kelly was very successful at is making 
very clear we will enforce our laws. It is vital that we do so. 
We will do so; should I be confirmed, I intend to do so.
    We also need that mix on the border that you and I have 
talked about. It is not just people. It is not just physical 
barriers. But it is that technology, and it is the policies and 
procedures that enable us to sense and quickly respond. 
Something as seemingly as simple as a road along the piece of 
physical barrier enables us to actually monitor it and respond 
should a threat be able to get past.
    There are a variety of things we can do in conjunction with 
State and local governments that I would plan on continuing.
    Senator Daines. I appreciate, too, your comments on the 
humanitarian side as it relates to what is going on as we are 
enforcing the law, what impact that is having on children, on 
vulnerable young men and young women, those coyotes that you 
mentioned.
    Ms. Nielsen. Yes.
    Senator Daines. When we see a four-legged coyote in 
Montana, we have a certain response that I will not talk about 
here. But let us just say I am grateful to see both the hard 
number results we are seeing coming off the Southern Border now 
through your leadership but, importantly, the softer area of 
helping these women and children and young people who would 
otherwise be very vulnerable to what happens when they are 
trying to make the crossing.
    Ms. Nielsen, as we discussed, I spent 28 years in the 
private sector before I put a suit and tie up and came up to 
this Hill, 12 years with a global cloud computing company. We 
faced cyber threats daily, and we were delivering security for 
customers, many of which were Fortune 500 clients.
    You also have an extensive background in cybersecurity. 
Recently, in Columbia Falls, Montana, the school district was 
hacked from overseas. They were using the stolen data of 
children and faculty to make very violent and very direct 
threats. Crimes of this nature surpass the authorities and the 
resources of State and local law enforcement, and we were very 
grateful for and dependent upon resources coming from the 
Federal Government to get to the bottom of this threat.
    As the Secretary of Homeland Security, if confirmed, you 
will lead the whole of the government's cyber efforts. How will 
you work to make our citizens and their personal information 
safer from these worldwide attacks?
    Ms. Nielsen. Thank you, sir, and I did enjoy our extensive 
cyber conversation. Thank you for having that with me.
    I think when we look at information, the threat has 
changed. I would, if I were sitting here, maybe even 10 years 
ago, talk a lot about confidentiality. Data breaches continue 
to this day, as you know, but what is perhaps more concerning 
is the ability of those who would do us harm through the 
Internet to change the integrity of that information or through 
ransomware and other tacks to make it not available.
    What happened in the example that you gave was they both 
were able to get in, take the information, and then use it for 
a nefarious purpose. That is different than the more 
traditional criminal data breaches that we had been dealing 
with over the last 15 years, which still exist, but we have 
morphed now into a perhaps more dangerous area.
    In particular, the integrity of information, whether we are 
talking about control systems or your blood type, my blood 
type, I would like it to be correct should I have a need to go 
to the hospital. Ensuring that we have integrity of 
information, we have the resilience built in, redundancy for 
key assets to include information becomes vital.
    When I look at the way in which we have worked at the 
Department over the last 13 years, I think it has served us 
well to develop and create partnerships within the private 
sector, State and local governments. But what we need to do 
perhaps as the next step, the next evolution, is to look across 
sectors, across regions, and to really look at those critical 
assets and critical pieces of information that we need to 
ensure that we are protected. In my view, there is an enhanced 
Federal role in that protection.
    Senator Daines. Thank you. I am out of time. Another 
concern I have about where this is all headed is in the area 
actually of quantum computing and the fact that our Nation very 
likely may not be in the leadership position anymore in terms 
of that cutting-edge technology and the ability for perhaps 
others to break encryption. That threat that is over the next 
hill here is looming even closer as we speak.
    I look forward to seeing you in Montana.
    Ms. Nielsen. Yes, sir.
    Senator Daines. I did not get a chance to talk about the 
Northern Border, but we have one, and we would love to take you 
up to the northern part of our State and take a look at what is 
going on there with our Northern Border. Thank you.
    Ms. Nielsen. It would be my pleasure.
    Chairman Johnson. Thank you, Senator Daines. By the way, I 
share your concern that we are not potentially in the 
leadership position on quantum computing. It represents a real 
threat. That is something we need to keep our eye on.
    We will start a second round. Senator McCaskill? I will 
continue to defer my questions until the end.
    Senator McCaskill. I know that you were very involved in an 
after-action report on Hurricane Katrina when you worked in the 
Bush Administration. If confirmed, will you commit to a public 
after-action review of the Federal Government's response to 
Hurricanes Harvey, Irma, and Maria?
    Ms. Nielsen. Yes, ma'am.
    Senator McCaskill. I want to talk just briefly about 
counterterrorism and the budget. There are pretty aggressive 
cuts in the budget. While we are dramatically increasing the 
funding for a border wall for immigrant detention and interior 
enforcement, it is severely cutting programs like the Visible 
Intermodal Prevention and Response (VIPR) teams, which are 
essential in our airports, cutting those teams from 31 down to 
8; also, the Urban Area Security Initiative, which is very 
important in cities like New York, where we saw the terrorist 
attack recently; the State Homeland Security Program; the State 
Emergency Management Performance Grants; completely zeroes out 
the Law Enforcement Reimbursement Program that also serves our 
Nation's airports; completely zeroes out the Countering Violent 
Extremism Program; completely zeroes out the Complex 
Coordinated Terrorist Attack Program.
    The total is $582 million that have been taken out of these 
programs, and let me ask you first: Are you aware at this point 
whether New York City relied on any of these grant programs in 
their response to the deadly attack that occurred there 
recently?
    Ms. Nielsen. I do not have any doubt that they did.
    Senator McCaskill. I would love for this Committee to get 
information, if you are confirmed, as to how many attacks in 
New York City have been prevented--because they have prevented 
a bunch of them--because of this funding and what role this 
funding played in their response to the recent attack.
    Do you know of any rationale for cutting the VIPR teams so 
significantly knowing what has gone on in airports across the 
world?
    Ms. Nielsen. As I understand it, the determination was 
simple balancing of risk. There are a variety of threats, as 
you know, that TSA faces not just in aviation but also in 
maritime and mass transit land.
    Senator McCaskill. Do you think there are metrics that have 
evaluated the risk on more wall versus the VIPR teams?
    Ms. Nielsen. I am not aware if that particular cost-benefit 
analysis has been conducted, but----
    Senator McCaskill. Well, your predecessor admitted to us 
there has been no cost-benefit for the wall, none done. We are 
getting ready to try to spend a gajillion dollars on something 
that there has been no cost-benefit done.
    You are really good at metrics. I like you talking about 
metrics. We were discussing it informally up here. I would 
really like you to take a swing at the metrics of the programs 
that are being increased in terms of real risk to our country, 
in terms of homeland security, versus the programs that are 
being cut, because that is what the analysis should be. It 
should not be based on politics. It should be based on the 
metrics of risk. If that has occurred, frankly, it is going to 
surprise me. But if it has, I will be the first to admit, what 
you were willing to admit a moment ago, that I am making a 
mistake by asserting this has been done on the basis of 
politics rather than risk, and I will look forward to you 
getting back to me on that.
    Ms. Nielsen. Yes, ma'am. If I could just offer quickly, I 
think it has to be risk-based. I think that we fail when we do 
not look at risk across the Department--frankly, across the 
interagency, because there are other departments that play a 
role in homeland security. I could not agree more. It has to be 
risk-based, and it cannot be done in a stovepiped way.
    Senator McCaskill. Yes, and it kind of dovetails with some 
of the questioning of my colleague in that we all--no one here 
wants you to do anything but prioritize people who are in this 
country illegally that are committing crimes. There is no 
argument there. There is no red shirt/blue shirt. There is no 
divide on that. But that is not what a lot of these resources 
are being used for right now. There are resources that are 
being expended that I do not think that analysis has occurred, 
and I am particularly worried as it relates to some of the 
funding that has really joined State and local law enforcement 
with the Federal responsibility of homeland security. The more 
we abandon those programs that knit us together, the more 
vulnerable we are going to be to an attack. I will look forward 
to you getting back to me on that.
    I will yield the rest of my time.
    Chairman Johnson. Thanks, Senator McCaskill.
    Let me just chime in a little bit on risk-based because I 
think there is another component to that. It has to be risk-
based, but also combined with are there effective solutions. If 
there is an easy solution for something that is a little bit 
lower risk, we also have to concentrate on that as well. It is 
kind of a two-part formula. Senator Harris.
    Senator Harris. Thank you, and I join the issue with 
Senator McCaskill on those points about resources. Just as a 
point of emphasis on enforcement priorities, we discussed this 
earlier. But the previous Administration prioritized violent 
and serious crimes and any conduct that would pose a risk to 
national security. Do you agree that that should be the highest 
priority and with limited resources, certainly that is where 
the resources should go in terms of deportation and enforcement 
actions?
    Ms. Nielsen. Yes, ma'am.
    Senator Harris. Thank you. You may be familiar with this 
case, but on October 24th, a 10-year-old girl by the name of 
Rosa Maria Hernandez was being rushed to a hospital in Corpus 
Christi for an emergency gall bladder surgery. Customs and 
Border Patrol officers stopped the ambulance and then followed 
it to the hospital. Immediately after Rosa Maria's surgery was 
over, she was arrested and taken away from her family. Current 
DHS policy prohibits enforcement actions at or near sensitive 
locations such as hospitals, schools, and churches unless prior 
approval is given or exigent circumstances exist. Despite this, 
Rosa Maria was apprehended at a hospital after her surgery was 
over.
    If confirmed, do you commit to maintaining DHS's policy as 
it relates to sensitive locations?
    Ms. Nielsen. I do, and should any further clarification be 
needed, I would ensure that that occurs.
    Senator Harris. In fact, I appreciate you making that 
point--I would urge you to actually issue guidance to the 
agents, if confirmed, that this policy exists and this type of 
thing should not happen again.
    Ms. Nielsen. I would, and in conjunction with the 
Commissioner and Director.
    Senator Harris. Thank you.
    In your questionnaire you stated that as DHS Chief of 
Staff, you had the job of overseeing 240,000 DHS staff and had 
resource-and budget-related decisionmaking authority and 
responsibility for the Office of the Secretary. Last week, the 
DHS Office of Inspector General issued its annual report on 
major management and performance challenges facing the 
Department. The report reads, ``DHS often fails to update and 
clarify guidance and policies, ensure full and open 
communications between employees and management, offer 
sufficient training, and reduce administrative burdens. Our 
reports are replete with examples of insufficient training to 
enable and enhance job performance.''
    Have you read this report?
    Ms. Nielsen. Yes, I have.
    Senator Harris. You are probably aware that the Inspector 
General issued a similar report last year?
    Ms. Nielsen. Yes.
    Senator Harris. The obvious point there is that there seems 
to have been no improvement since last year. If confirmed, will 
you agree to report back to this Committee within the first 3 
months on what you have put in place to correct course and, in 
particular, emphasize the importance of training the employees 
of DHS and clearly communicating policies with them?
    Ms. Nielsen. I will, and also, my other two big takeaways 
from that report were the needed continued focus on unity of 
effort and ensuring that we have internal controls as set by 
leadership. And, yes, I would be happy to.
    Senator Harris. Having had the experience of running a law 
enforcement agency of almost 5,000 people as Attorney General 
of California, it is clear to me, based on my experience, that 
when you are running a large agency, you cannot run it just 
from the top down. It also has to be from the bottom up. That 
means clearly giving guidance and training in particular to the 
good men and women who have the authority, the power, and the 
responsibility to enforce our laws. There have been many 
nominees who have sat in that chair who have had varying levels 
of appreciation of that point. But I would like you to commit 
to this Committee that you will prioritize training and clear 
communication and guidance to an agency of hundreds of 
thousands of people.
    Ms. Nielsen. Absolutely.
    Senator Harris. Thank you.
    At a June Senate Intelligence Committee hearing, the DHS 
Assistant Secretary for Cybersecurity and Communications 
asserted that DHS was developing a policy to help States secure 
their election systems. Just yesterday, as you know and you 
have mentioned, Virginia and New Jersey had elections. If 
confirmed, what is the timeline, particularly the deadline--and 
you and I talked about this in our meeting--for establishing 
and implementing a DHS policy?
    Ms. Nielsen. Yes, as you are aware, then-Secretary Johnson 
clarified that, in fact, election infrastructure is considered 
critical infrastructure under our partnership model. The 
Government Coordinating Council (GCC) has been created. Since 
we spoke, I have verified that it, in fact, is in existence 
today. It works closely with the Election Commission. It uses 
third-party certifiers of the requested State to certify the 
election infrastructure and then 
also provides a variety of other vulnerability assessments and 
other--so should I be confirmed, I would absolutely very soon 
upon confirmation ensure that we have reached out to all States 
and territories to ensure that they have what they need for 
local and State and Federal elections.
    Senator Harris. Are you giving yourself a timeline or a 
deadline to accomplish that?
    Ms. Nielsen. I will give myself one, but I will also say to 
you I would like to make that deadline in conjunction with the 
State and local officials and would be happy to report to you 
what that is.
    Senator Harris. Thank you. It has been reported that the 
Administration is moving forward on a policy that would lead to 
expedited removal of unaccompanied children who are arriving at 
the border, having fled incredible violence. If confirmed, will 
you please share with my office any policy memos that the 
Department is planning to implement affecting the processing of 
unaccompanied minors?
    Ms. Nielsen. Yes.
    Senator Harris. Are you aware of the Administration's 
policy shift in that regard?
    Ms. Nielsen. What I am aware of is that expedited removal, 
as you know, is limited in most cases to those who are from, 
rather, Canada and Mexico. I understand there is an attempt to 
work with Congress to ensure that, when appropriate, anybody 
who comes with an illegal entry can be--if they are 
appropriately in a situation where they need to be deported, to 
do so in an expedited way to save them from being detained in 
our country. But I am not familiar with any particular policy 
papers or other descriptions.
    Senator Harris. You are aware, though, that the 
unaccompanied minor issue, as it has been playing out in the 
last few years, is not about the children of Mexico or Canada; 
it is about Central American countries and, in fact, the five 
top murder capitals of the world.
    Ms. Nielsen. Yes, ma'am.
    Senator Harris. OK. Are you aware of a shift in the 
Administration's policy as it relates to those children?
    Ms. Nielsen. To anybody from other countries that illegally 
enter, including those children, yes.
    Senator Harris. What is the shift of the policy?
    Ms. Nielsen. The shift in policy, as I understand it--and, 
again, should I be confirmed, I would definitely dive into the 
policy papers and descriptions. But as I understand it, the 
concern is that right now the system is such, due to a variety 
of other factors, that when somebody does come in illegally, 
they are detained, and sometimes they are detained for quite a 
long period of time, as you know.
    Senator Harris. I am running out of time, so I just want to 
ask you one more question. Do you agree with a policy that 
would expedite deportation of unaccompanied minors who are 
coming from those Central American countries?
    Ms. Nielsen. I believe in reuniting children with their 
families. If their families are not here----
    Senator Harris. Then are you saying you would deport those 
children to reunite them with their families who have actually 
put those children in a process of fleeing violence and they 
want those children to be safe and in the United States?
    Ms. Nielsen. Well, in that case I would certainly want to 
work with you to understand more about the implications.
    Senator Harris. Thank you.
    Chairman Johnson. Senator Hassan. Again, I will apologize 
for getting out of order.
    Senator Hassan. It is all fine, and I appreciate it very 
much. I appreciate the chance to have a second round of 
questions.
    Ms. Nielsen, I just wanted to start by expressing my 
concern about your answer to one of Senator Carper's questions 
about climate change. When you are in charge of our country's 
security, when you are in charge of our response to natural 
disasters, you need to be able to rely on science and 
technology and consider and assess the science and technology 
that you are being advised with objectively and put it well 
before politics. What I heard in your answer was politics 
before science, and that concerns me very much.
    As Governor of the State of New Hampshire, when we were 
dealing with natural disasters, one of the first things we did 
was have the National Weather Service from Gray, Maine, on the 
phone advising us as to what we were going to see, what we were 
going to be dealing with. In dealing with security measures, I 
had to rely on engineers and technologists about the power of 
certain kinds of responses to possible threats.
    Just consider this a concern expressed by me that if you 
are willing to dodge a question when 99 percent of the world's 
scientists agree that the primary cause of climate change is 
human activity, that concerns me about your qualifications to 
take on this role.
    Ms. Nielsen. Could I just answer that, if I could?
    Senator Hassan. Of course, yes.
    Ms. Nielsen. Unfortunately, I was cutoff from Senator 
Carper as well. What I would have said is that not only do I 
think the climate is changing, but I think it is vital that we 
in response change our modeling, our preparedness, and 
responses. Climate has a direct effect on natural disasters.
    Senator Hassan. Of course it does. But if you are unwilling 
to acknowledge that the primary cause of it is human behavior, 
then you are not going to be able to change the modeling 
appropriately. What we are looking for is people who are 
willing to acknowledge that there is a huge and incredibly well 
vetted peer-reviewed science that tells us that climate change 
is primarily caused by human activity. One of my concerns, as 
many, should you be confirmed, of your fellow Cabinet members 
are also people who will not acknowledge the primary cause of 
climate change, and they are often the people who would be 
advising you in times of considerable natural disaster and 
threat. They are not willing to listen to science either.
    I am going to move on to the question that I wanted to ask 
in this second round, but just hope that you might educate 
yourself about what science says about climate change and the 
primary cause of it.
    Ms. Nielsen. You have my commitment, should I be confirmed, 
to review the science. Yes, ma'am.
    Senator Hassan. Our country's safety really does depend on 
that.
    Now, on to election security, I wanted to follow up on 
Senator Harris' line of questioning, because according to a 
Newsweek report from early October entitled, ``Russians still 
have an open path to U.S. election subversion,'' DHS's high-
level outreach teams, known as the Government Coordinating 
Council, which I think is what you were just referring to, are 
only just now reaching out to States to assess their election 
cyber needs. Mr. Chairman, I would like to submit this article 
for the record,\1\ without objection.
---------------------------------------------------------------------------
    \1\ The article referenced by Senator Hassan appears in the 
Appendix on page 272.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Hassan. It seems that you just confirmed what this 
article said, which is that DHS has only started to reach out 
to States' chief election officials within the past few weeks.
    We are more than a year past Russia's hack of our election. 
We just had gubernatorial elections in two States yesterday, 
and we are just months away from the 2018 election cycle. Why 
did it take so long for DHS to establish this Government 
Coordinating Council? What actions did you take as DHS Chief of 
Staff to help accelerate the establishment of this Council?
    Ms. Nielsen. Thank you for the question and for the 
opportunity to clarify. DHS, as I understand it, has been 
working with States for many months, 14 or 15----
    Senator Hassan. My understanding is they have just started 
now to reach out to the chief election officers, which is an 
absolutely critical step.
    Ms. Nielsen. I do not believe that is correct, 
respectfully, in my understanding. When I was at DHS, we 
ensured that, following on the work that Secretary Johnson did, 
we established what is called a subsector, sub-tech Sector 
Coordinating Council, which is primarily the private sector 
side, if you will, also has some government folks on it. The 
GCC is a very specific sister part of that partnership model. 
That was recently stood up in conjunction with a commission 
that is really focused on third-party certification of the 
infrastructure, not the vulnerability, not the monitoring, not 
the threat and information sharing, which has been occurring 
since at least prior to January.
    Senator Hassan. OK. Then I hope you will read this article, 
and we will have further discussions about it. My concern is 
whether, in fact, election security is really a priority for 
this President, and----
    Ms. Nielsen. It must be.
    Senator Hassan. Did you do anything in the White House to 
accelerate preparations to make sure that our election cyber 
systems were secure?
    Ms. Nielsen. Only from a policy perspective. Again, I did 
not have any command or control or any assets at my disposal in 
my White House job. But, yes, ensure that the policy process 
addressed any risk that we face today.
    Senator Hassan. Are you comfortable that our States will be 
able to defend against Russia's hacking efforts in the 2018 
cycle?
    Ms. Nielsen. I would like to be in a place where I can 
answer that in the affirmative, should I be confirmed. I cannot 
answer that now. I do not know. I certainly hope so. That 
should be the goal. We should work and use everything we can to 
ensure that that does not occur.
    Senator Hassan. It is a priority of yours to ensure that 
the absolute bedrock of our democracy is protected before our 
2018 elections take place?
    Ms. Nielsen. Yes, ma'am.
    Senator Hassan. We have your commitment, if necessary, to 
ask for additional funding, to ask for additional resources, to 
work with the States to ensure that when people go to the 
polls--and remember that there is early voting in many States--
they can be confident again that the election systems in each 
and every State are secure.
    Ms. Nielsen. We must do it in partnership, yes.
    Senator Hassan. Thank you. I yield my time.
    Chairman Johnson. Thank you, Senator Hassan. By the way, I 
would love to work with you and other Members, because the 
issue has been raised a number of times, in terms of the 
resiliency models we are using, to design a hearing to look at 
that. One question I would certainly want to have on the table 
during that hearing, though, is if we spend literally billions 
if not hundreds of billions of dollars trying to address this 
science and this problem, what kind of bang for the buck do we 
get? Again, I would love to work with you on designing a 
hearing to elicit that kind of information.
    But let me start, Ms. Nielsen, with my questions kind of 
down that same path. Last week we held a hearing with FEMA 
Director Brock Long, who I really do believe acquitted himself 
well, I think, throughout this process, including the hearing, 
with the unprecedented disasters he was faced with after 172 
days on the job. Obviously, government has learned a lot of 
lessons from Hurricane Katrina, but one of my concerns--and I 
had a poster out there, produced, I believe, by the Heritage 
Foundation, showing the dramatic increase in the number of 
FEMA-declared disasters.
    I am concerned about the moral hazard, the reliance of 
State and local officials on the Federal Government to not only 
respond but also to understand exactly what the risks are when 
I think that is primarily a State and local responsibility. I 
think this is the question I have for you. You talked about the 
partnership model. Who really is primarily responsible for the 
response to natural disasters? What is FEMA's and DHS's role 
from that standpoint? What is your understanding of that?
    Ms. Nielsen. Thank you, sir. I would like to answer two 
different ways.
    First, I believe that the primary responsibility is of the 
State, local, tribal, and territorial governments. They are 
there. They are on the ground. They know their community. They 
know their vulnerabilities the best.
    Upon request, however, it is the role of the Federal 
Government to provide assistance. That can be in the form of 
funding from the Disaster Relief Fund. That can be in the form 
of personnel and additional surge capacity, if you will. It can 
also be in training and exercises and other preparedness 
activities pre-hazard.
    In terms of the bang for the buck part of the question, I 
think we really need to relook at it. It is not really a 
question of eliminating or limiting what it is that we are 
providing overall, but ensuring that we are doing it in the 
right way in partnership with State and local governments.
    Perhaps there are some grants on the front end that can 
help them capacity-build. Perhaps there are other ways in which 
we can distribute money after an event to ensure that it is 
spent effectively and efficiently.
    Chairman Johnson. It seems to me, after Hurricane Katrina 
and following other disasters, we have certainly learned that 
different State and local governments are better prepared than 
others. I think that is a pretty important assessment, quite 
honestly, that FEMA and the Department of Homeland Security go 
through to try and identify and maybe point out to States there 
are some best practices in other States that you might want to 
follow.
    Having been involved with Hurricane Katrina and certainly 
the after-action report on that, what were the lessons, what 
were the primary lessons learned from Hurricane Katrina? What 
lessons have been learned from previous disasters that I really 
do believe set us up to respond and pre-plan from the last 
round of hurricanes?
    Ms. Nielsen. Overall, what I would say is I think all of 
these major disasters have shown us, given their size and 
scope, that our plans have to be scalable and they have to be 
agile. Unfortunately, as you always hear in a DOD and military 
construct, a plan rarely survives first contact, and the reason 
for that is because it is always contextual in terms of the 
given consequences of any given storm. The unity of effort 
concept I believe in strongly. It needs to be presented in a 
way that all parties understand their roles and 
responsibilities, but also understand those roles and 
responsibilities could be different given the size and scope of 
the storm.
    Certainly, in Hurricane Katrina what we saw is we needed to 
do more ahead of time. We need to pre-position more. We needed 
to ensure that those contracts that Senator McCaskill mentioned 
before were in place prior to an event so that we were not 
trying to contract last minute. The roles and responsibilities 
needed to be very clear. When was it appropriate for the 
National Guard to be included? When was it appropriate for 
active-duty forces to be utilized as part of a mission 
assignment?
    A lot of it was just learning the lesson that, when 
something is that big and the scope is that complete and the 
local government, as you mentioned, in that case was 
incapacitated, what is the additional Federal role and how best 
can we support?
    Chairman Johnson. Ms. Nielsen, we have had a number of 
questions about the wall. I would refer you, by the way, as we 
are designing the prototypes--I was in Israel, and they 
responded with, I think, about a 140-, 150-mile wall, built it 
at $2.9 million per mile. Pretty effective, a number of the 
components of that, but that would be a pretty good model just 
to take a look at as a prototype.
    We were together at the Southern Border in San Diego. One 
of the things I was struck by was the almost unanimous 
viewpoint of immigration judges about how over time, based on 
precedents, often precedents decided by the Ninth Circuit, we 
really have picked holes in our immigration laws that create 
the incentive for illegal immigration. I am all for better 
barriers where they are needed, but I think we really do need 
to address the incentives created in our laws, in our 
precedents.
    Can you speak to that issue?
    Ms. Nielsen. Yes, sir. It is something that I have actually 
had the pleasure of speaking about in various capacities with 
the Attorney General and other State and local law officials 
such as those in San Diego. The law has to be clear not only 
for us to be able to enforce it, but to serve as a deterrent. 
The more that, unfortunately, there are picking-aways, if you 
will, either through discretion or through application or 
through backlogs or through the lack of immigration judges, we 
disable ourselves from not only enforcing the law, but to 
getting the effect that the law was meant to provide to begin 
with.
    Certainly should I be confirmed, I look forward to having 
those conversations with the Attorney General, understanding 
the need for immigration judges to quickly and competently 
enforce our laws on that part of the system, and to work with 
State and locals to see what is working and not working at 
their level.
    Chairman Johnson. I look forward to working with you. I 
know as we are trying to solve the whole issue of DREAMers, 
from my standpoint the humane thing is to stop the flow of 
children coming in, stop incentivizing them to take that very 
dangerous journey on a train they call ``The Beast'' and 
subject themselves to all types of horrors.
    Again, I want to thank you for your past service and for 
your willingness to serve. As Senator Lankford pointed out, 
this confirmation process is not particularly fun, and as 
former Secretaries as well as I said in my opening statement, 
you are agreeing to step into the position with a very daunting 
task. But I think at this hearing you have shown yourself to be 
very knowledgeable. You have a great deal of relevant 
experience, and as a result, I think you are very well 
qualified for this position. Again, I thank you for your 
willingness to serve.
    The nominee has made some financial disclosures and 
provided responses to the biographical and prehearing questions 
submitted by the Committee. Without objection, this information 
will be made part of the hearing record,\1\ with the exception 
of the financial data, which are on file and available for 
public inspection in the Committee's offices.
---------------------------------------------------------------------------
    \1\ The information referenced by Senator Johnson appears in the 
Appendix on page 61.
---------------------------------------------------------------------------
    Chairman Johnson. The hearing record will remain open until 
noon tomorrow, November 9th, for the submission of statements 
and questions for the record. However, if Members wish to 
receive responses to their questions from Ms. Nielsen prior to 
an anticipated Committee vote on this nomination tomorrow, they 
must submit questions for the record by 5 p.m. today.
    This hearing is adjourned.
    [Whereupon, at 12:25 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                [all] 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
